Audit Report




OIG-10-013
Audit of the United States Mint’s Fiscal Years 2009 and 2008
Financial Statements


December 1, 2009




Office of
Inspector General
Department of the Treasury
      The Mint strives to ensure that their documents are accessible;
to obtain a Section 508 compliant copy of the Mint’s 2009 Annual Report,
                          see the Mint’s website:

                        http://www.usmint.gov/

                               Also see:

       Web Accessibility and Section 508 Compliance policy page
                                       DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 1, 2009


            MEMORANDUM FOR EDMUND C. MOY, DIRECTOR
                           UNITED STATES MINT

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Audit of the United States Mint’s Fiscal Years 2009 and
                                   2008 Financial Statements


            I am pleased to transmit the attached audited United States Mint (Mint) financial
            statements for fiscal years 2009 and 2008. Under a contract monitored by the
            Office of Inspector General, KPMG LLP, an independent certified public accounting
            firm, performed an audit of the financial statements of the Mint as of
            September 30, 2009 and 2008 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
            amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were presented fairly, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no matters involving internal control over financial reporting that are
                    considered material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated November 24, 2009 discussing
            certain matters involving internal control over financial reporting and its operation
            that were identified during the audit but were not required to be included in the
            auditors’ reports. This letter will be transmitted separately.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated November 24, 2009,
and the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audits at
(202) 927-5407.

Attachment
United States Mint

    FY 2009

 Annual Report
           E A S U RY
      TR
UN




                        T
                        IN


     ED
 IT




                   M



           S TA TE S
Table of Contents


      Financial Highlights								                                      2
      Director’s Letter									                                        3
      Organizational Profile								                                    7
      Our Goals
       Exclusive Brand Identity							                                  9
       Effective Coin and Medal Portfolio						                         12
       Excellence in Coin Design							                                 16
       Operational Efficiency and Highest Quality Standards				         19
       Optimal Workforce and Workplace Culture					                     22
      Management’s Discussion and Analysis
      Message from the Chief Financial Officer						                    26
      Operating Results by Segment
       Circulating									                                             28
       Bullion									                                                 33
       Numismatic									                                              36
      Transfer to the Treasury General Fund						                       41
      Performance Goals, Objectives and Results					                    42
      Analysis of Systems, Controls and Legal Compliance				            46
      Limitations of the Financial Statements						                     48
      Independent Auditors’ Report							                               49
      Financial Statements								                                      51
      Notes to the Financial Statements						                           55
      Required Supplementary Information						                          71
      Independent Auditors’ Report on Internal Controls				             72
      Exhibit I Status of Prior Year Significant Deficiencies				       74
      Independent Auditors’ Report on Compliance and Other Matters			   75
      Appendix I: FY 2009 Coin and Medal Products					                  77




                                             1
Financial Highlights
                         Financial Highlights

                         Total Dollar Value of Sales                               Total Seigniorage and Net Income                           Transfer to the Treasury General Fund
                         (dollars in millions)                                     (before Protection Cost, dollars in millions)              (dollars in millions)
                                                                     2,912.4
                                                           2,800.5                                      1,085.6
                                                 2,635.4
                                                                                                                                                                      825.0
                                    2,323.4                                                                                                    775.0       750.0                750.0
                                                                                    801.4      767.9                806.4
                          1,770.9
                                                                                                                                                                                        475.0
                                                                                                                              501.6




                           2005       2006       2007      2008       2009          2005       2006      2007       2008      2009             2005        2006       2007       2008   2009




                         Shipments to the Federal Reserve Banks                  Bullion Sales                                                Numismatic Sales
                         (coins in billions)                                     (ounces of bullion sold in millions)                         (net units shipped in millions)

                                                                                                                                                                      11.4       11.1
                                                                                                                              27.6              10.7
                                      16.1                                                                                                                  9.5
                                                                                                                                                                                         8.0
                            14.0                  14.0

                                                                                                                    18.4
                                                            10.0
                                                                                               11.9
                                                                       5.2           9.0                    8.3




                           2005       2006       2007      2008       2009          2005       2006      2007       2008      2009             2005        2006       2007      2008    2009




                                                                                                                                                                                % Change
(dollars in millions)                                              2009              2008                    2007                     2006                 2005                 2008 to 2009
Value of United States Mint Sales
  Circulating                                                $ 777.6           $ 1,294.5                $ 1,727.8              $ 1,271.9               $ 1,144.8                 (39.9%)
  Numismatic Sale of Circulating Coins                       $    25.4         $    29.6                $    36.1              $    24.4               $    37.9                 (14.2%)
  Bullion Program                                            $ 1,694.8         $ 948.8                  $ 356.1                $ 536.6                 $ 270.7                    78.6%
  Numismatic Program                                         $ 414.6           $ 527.6                  $ 515.4                $ 490.5                 $ 317.5                   (21.4%)
Gross Cost
  Circulating                                                $ 349.8           $      588.3             $     722.6            $      603.4            $    445.4                (40.5%)
  Numismatic Sale of Circulating Coins                       $     6.1         $        7.1             $       9.0            $       10.5            $     14.6                (14.1%)
  Bullion Program                                            $ 1,662.1         $      931.0             $     351.6            $      524.4            $    265.2                 78.5%
  Numismatic Program                                         $ 392.8           $      467.7             $     466.6            $      417.2            $    244.3                (16.0%)
Seigniorage1 and Program Net Income2
  Circulating Seigniorage                                    $       427.8     $      706.2             $ 1,005.2              $      668.5            $    699.4                (39.4%)
  Numismatic Seigniorage                                     $        19.3     $       22.5             $    27.1              $       13.9            $     23.3                (14.2%)
  Bullion Program Net Income                                 $        32.7     $       17.8             $     4.5              $       12.2            $      5.5                 83.7%
  Numismatic Program Net Income                              $        21.8     $       59.9             $    48.8              $       73.3            $     73.2                (63.6%)

1 Seigniorage is the face value of circulating coins sold to the Federal Reserve Banks or the public less the total cost of production.
2 Net Income is the sales revenue of numismatic or bullion coin products less the total cost of production.




                                                                                       2
                              Edmund C. Moy
                              United States Mint Director


To the American People, Members of the United States Congress,
the United States Department of Treasury, Our Customers,
and Our Employees,
      Coin talk is part of the American lexicon: A penny for your thoughts. Two sides of the same coin.
      Stop on a dime. Let me put my two cents in. Coin a phrase. Not worth a plugged nickel. A penny
      saved is a penny earned. Don’t take any wooden nickels.
      Why do Americans care so much about coins? I often ask myself this question as I meet excited
      children at a coin launch, talk with impassioned collectors who want to tell me how we are doing
      or watch a cashier carefully count out the change from my purchase at the convenience store.
      At the United States Mint, we believe the answer is that we are integral to the fabric of our Nation.
      Coins are part of the common language of America and lifeblood of commerce, connecting us all.
      Coins bridge generations and bring people together.
      • To encourage an understanding of American history, geography and culture, a couple helps
         their three children search change and collect the 50 State Quarters®, then the District
         of Columbia and U.S. Territories Quarters. The whole family looks forward to the United
         States Mint America the Beautiful Quarters™ Program.
      •T
        o teach counting, an elementary teacher starts with pennies and then graduates to nickels,
       dimes and quarters to teach simple arithmetic.
      •A
        blind child reads Braille on an American coin for the first time—the 2009 Louise Braille
       Bicentennial Silver Dollar.
      •A
        collector who has always admired the golden age of coin-making and coveted the unobtainable
       1907 Double Eagle, gets the opportunity to buy a 2009 Ultra High Relief Double Eagle Gold
       Coin, a dream come true.
      Through these common and special moments in our lives, United States Mint coins connect us
      with the core values of America. From the great promise of the banner of liberty on the obverse
      to e pluribus unum on the reverse, a coin is a small piece of the ongoing American experience,
      linking us in an unbroken line to our country’s—and the United States Mint’s—origins in
      the Constitution.



                                                 3
When you hold a well-traveled or brightly gleaming United States Mint coin in your hand, you
connect directly to the wellspring of our Nation’s greatness, its future hope and all the stories—
yours and mine included—that unite us.
Last year, we introduced a new annual report format that looked more like a publicly traded
company’s. Our goal was to be more transparent so that our stakeholders could hold us more
accountable. Many of you liked the format, and this year we’ve tried to provide an even clearer
view of our results for 2009. This year’s report also features pictures of our employees, coins and
medals and facilities.
The big story in Fiscal Year (FY) 2009 was the recession. The United States Mint is no stranger
to recessions, as we’ve survived and thrived through 33 of them since 1854. But the severity and
rapidity of this recession challenged us and affected all three lines of our coining operations.
CIRCULATING COINS Our circulating coin production was at a 45-year low with fewer cash
transactions because of the slow economy and Americans cashing in coins they’d been saving.
We were able to keep our seigniorage margins up through lower metal costs and improvements
in the market share of $1 coins among the denominations, but the total amount of seigniorage is
the lowest we’ve seen in 12 years. The Federal Reserve Bank and the United States Mint forecast
continued low circulating coin demand for FY 2010.
BULLION COINS Our bullion sales approached $1.7 billion, our highest total ever and nearly
80 percent above last year’s sales revenue. In FY 2008, bullion accounted for 34 percent of our
total sales revenue. In FY 2009, it was 58 percent. We were able to meet demand for 22-karat
gold and silver one-ounce bullion coins by the third quarter of FY 2009. Our West Point facility
increased its output by 50 percent from last year, adding one bullion coining press but no
additional personnel, while also achieving an improved safety record. By law, the purpose of
the bullion coin program is to make precious metal coins available at minimal cost to inves-
tors; we manage to just under a two-percent margin, so our record bullion sales did not have a
substantial impact on net income.
NUMISMATIC PRODUCTS Our numismatic business held its own in very tough retail condi-
tions, helped by the success of our new product, the 2009 Ultra High Relief Double Eagle Gold
Coin. Sales of other precious metal numismatic products were significantly hurt by the high
demand for bullion. By law, we must meet the public’s demand for our gold and silver bullion
coins before we can offer our signature numismatic gold and silver proof coins. We have worked
to stay ahead of bullion demand and hope to resume some American Eagle and American Buffalo
numismatic product sales in FY 2010.
The bottom line is that, even though the United States Mint grew top line revenue to a recent high
of $2.9 billion, our transfer to the Treasury General Fund is small compared to recent years.
We made progress on our five strategic goals: branding; product portfolio; coin and medal design;
operational efficiency; and developing an optimal workforce and workplace culture. There are
several things I want to highlight.




                                          4
BRANDING After much research and feedback, our brand promise became clear: Connecting
America through Coins. With our brand platform established, we are in the process of developing
a consistent visual style, voice, and experience that we want our stakeholders to see, hear and
feel. We are excited about launching our branding initiative because it will define who we are and
the role we play in serving the more than 300 million citizens who depend on us.
PRODUCT PORTFOLIO We conducted a thorough assessment of the 550 products in our prod-
uct portfolio. As a result of that assessment, we stopped producing products our customers were
not buying. This will allow us to focus efforts on providing products with the broadest appeal
and invest in new products like the 2009 Ultra High Relief Double Eagle Gold Coin. We offered
the discontinued inventory in a limited-time public sale, which generated $2.7 million in revenue.
COIN AND MEDAL DESIGN We created a white paper defining what artistic excellence means
to the United States Mint and developed a tactical plan that moves us in the direction of creating
better-looking coins. The United States Mint’s coins won awards in three of ten categories in last
year’s Coin of the Year Awards.
OPERATIONAL EFFICIENCY Low coin demand allowed us to implement much needed
equipment maintenance, capital investments and employee training that should result in long-term
efficiency gains. From measuring equipment efficiency to refining our quality measures, we estab-
lished baselines we are committed to exceed.
OPTIMAL WORKFORCE AND WORKPLACE One key element of success for optimizing
our workforce and workplace culture is to improve employee safety. This year, we reduced our
already very small accident rate from 4.10 to 2.50 recordable incidents per 100 full-time workers,
which places us among the elite in American manufacturing. Additionally, the Voluntary Protec-
tion Program at the United States Mint at Philadelphia won recertification from the Occupational
Safety and Health Administration. I’m proud to say that we had a very safe year.
I went into some detail about our strategic realignment last year. This year, we expanded strategic
planning from senior executives and union leadership to departmental managers and supervisors.
Ultimately, it’s our goal to have every employee at the United States Mint participate in various
stages of our strategic planning process; know what their roles, responsibilities and performance
metrics are; and be held accountable and rewarded for their contributions to accomplish the
strategic plan.
We do have some challenges facing us for FY 2010.
DESIGN CAPACITY Our design capacity is stretched quite thin, and we must develop new ways
to design our coins and medals on a timely basis, yet create them with greater artistic excellence.
New designs upcoming in FY 2010 are as follows: the fourth Lincoln Bicentennial One-Cent
Coin, the 2010 Lincoln One-Cent Coin reverse, the final commemorative quarter-dollar coin in
the 2009 District of Columbia and U.S. Territories Quarters Program, four United States Mint
America the Beautiful Quarters™, four Presidential $1 Coins, one Native American $1 Coin, four
First Spouse Gold Coins, the Boy Scouts of America Centennial Commemorative Coin, the Amer-
ican Veterans Disabled for Life Commemorative Coin and several Congressional Gold Medals.




                                          5
Front Row Left to Right: Cliff Northup, Director of Legislative Affairs; Dennis O’Connor, Chief of Protection;
Richard Peterson, Associate Director of Manufacturing; Edmund C. Moy, Director; David L. Kim, Chief
of Staff; B. B. Craig, Associate Director of Sales and Marketing; Marc Landry, Philadelphia Plant Manager
Back Row Left to Right: Patrick M. McAfee, Director of $1 Coin Programs; Patricia M. Greiner, Chief
Financial Officer; Larry Eckerman, San Francisco Plant Manager; Eric Anderson, Executive Secretary;
Mike Stojsavljevich, Chief Strategy Officer; Tom Jurkowsky, Director of Public Affairs; Andrew D. Brunhart,
Deputy Director; David M. Croft, Denver Plant Manager; Daniel P. Shaver, Chief Counsel; Debra Tomchek,
Associate Director of Workforce Solutions; Ellen McCullom, West Point Plant Manager


            CIRCULATING COIN METAL CONTENT While metal prices fell during the global recession,
            thus reducing our losses on pennies and nickels, base metal prices have begun to rise as the world
            economy begins to recover. Higher metal prices will result in reduced seigniorage that ultimately
            negatively affects the taxpayer.
            RECORD LOW PRODUCTION The current circulating coin demand forecast from the Federal
            Reserve Bank projects similar orders for FY 2010 as in FY 2009. This means operating another
            year at a historic production low. We do, however, expect high gold and silver bullion coin
            demand to continue.
            WORKPLACE CULTURE Our workplace culture must improve. For the second time in four
            years, the United States Mint ranked near the bottom of the Federal Human Capital Survey.
            While we’ve made progress on some internal measures, such as our Goalsharing report card, we
            must do better to be one of the Federal Government’s best places to work.
            Changing the United States Mint from “business-as-usual” to an organization that is forward
            leaning and world class requires hard work and perseverance over the long term. Our efforts
            are made more complicated by the difficult economic environment. But we are determined to do
            what is right for the American people, and that is our greatest motivation. It is times like these
            that separate good organizations from the best. We are committed to becoming world class in all
            measures, and today, we are firmly on that path.

            Sincerely,




            Edmund C. Moy
            Director
            United States Mint
                                                      6
Organizational Profile

       Established in 1792, the United States Mint is the world’s largest coin manufacturer. Our vision
       is to embody the American spirit through the creation of our Nation’s coins and medals. The
       men and women of the United States Mint serve the Nation by exclusively and efficiently creating
       the highest quality, most beautiful and inspiring coins and medals that enable commerce; reflect
       American values; advance artistic excellence; educate the public by commemorating people, places
       and events; and fulfill retail demand for coins.
       The United States Mint is committed to achieving efficient operations and providing value to the
       American people. Since Fiscal Year (FY) 1996, the United States Mint has operated under the
       United States Mint’s Public Enterprise Fund (PEF). As authorized by Public Law 104-52 (codified
       at 31 U.S.C. § 5136), the PEF enables the United States Mint to operate without an appropriation.
       We generate revenue through the sale of circulating coins to the Federal Reserve Banks (FRB),
       numismatic products to the public and bullion coins to authorized purchasers. Moneys in excess
       of anticipated needs of the PEF are transferred to the United States Treasury General Fund.
       The United States Mint operates six facilities and employs approximately 1,900 employees across
       the United States. Each facility performs unique functions critical to our overall operations.
       Administrative and oversight functions are performed at our Headquarters in Washington, D.C.
       Manufacturing facilities in Philadelphia, Pennsylvania, and Denver, Colorado, produce coins of all
       denominations for circulation. Both facilities also produce dies for striking coins. All sculpting
       and engraving of circulating and numismatic coin and medal designs is performed in Philadelphia.
       Production of numismatic and bullion products is primarily performed at facilities in San Francisco,
       California, and West Point, New York. All four plants produce commemorative coins as authorized
       by laws passed by Congress and approved by the President. The United States Bullion Depository
       at Fort Knox, Kentucky, stores and safeguards United States gold and silver bullion reserves.
       Primary Responsibilities
       The United States Mint’s primary responsibilities include the following:
       CIRCULATING The United States Mint is responsible for enabling commerce by minting and
       issuing circulating coins in amounts necessary to meet the needs of the United States. We mint
       and issue circulating coins to the FRB for distribution to the Nation’s depository institutions.
       Commercial banks and other financial institutions then place coins into circulation to meet the
       demand of retailers and the public. Depository institutions can return coins to the FRB when they
       have more than necessary to meet demand. The United States Mint issues circulating coins to the
       FRB at face value. The net return, known as seigniorage, is the difference between the face value
       and the cost of producing circulating coinage. Seigniorage is transferred to the Treasury General
       Fund to help finance the national debt.
       BULLION The United States Mint manufactures and issues gold, silver and platinum bullion
       coins through a network of authorized purchasers, which include precious metal and coin deal-
       ers, brokerage companies and participating banks. Bullion coins provide investors a simple and
       tangible means to own coins whose weight, content and purity are guaranteed by the United
       States Government. Coins are available to the general public through authorized purchasers.




                                                 7
                                        NUMISMATIC The United States Mint prepares and dis-
                                        tributes numismatic items, including proof and uncirculated
                                        coins, coin sets, commemorative coins and medal products.
                                        These products are manufactured and specially packaged for
                                        collectors and other members of the public who desire high-
                                        quality versions of the Nation’s coinage as gifts or mementos.
                                        Through commemorative coin programs passed by Congress
                                        and approved by the President, the United States officially
                                        honors people, places, and events. By law, such programs
                                        include a surcharge in the price of the commemorative coin
             The United States Mint     that is authorized to be paid to recipient organizations for
              at Philadelphia strikes
                                        worthy causes with evident public support. Customers can
                  bronze duplicates
             of many Congressional      purchase numismatic coin and medal products through the
                   Gold Medals that     United States Mint website, by phone order, or by mail order.
                    are available for   Public points of sale are also available at the United States
                  sale to the public.
                                        Mint facilities at Philadelphia, Denver and Washington D.C.
                                        and a United States Mint kiosk in Union Station in Washing-
       VISION: To embody
                                        ton D.C. The objective of the United States Mint numismatic
       the American Spirit              program is to make numismatic products accessible, available,
      through the creation              and affordable to the American public. We make every effort
            of our Nation’s             to control costs and keep the prices of numismatic items as
         coins and medals.              low as practicable. Any net proceeds from the sales of numis-
                                        matic products are transferred to the Treasury General Fund
                                        to help reduce the deficit or fund current Federal Government
         MISSION: The men               programs or operations.
                 and women
                                        MEDALS As part of the numismatic program, the United
  of the United States Mint             States Mint prepares and strikes National and other med-
           serve the Nation             als. Congressional Gold Medals are selective awards autho-
              by exclusively            rized by Congress and approved by the President to honor
   and efficiently creating             specific individuals in recognition of their achievements and
        the highest quality,            contributions. The Congressional Gold Medal is widely
                                        considered the highest honor the Nation can bestow. The
              most beautiful
                                        United States Mint also strikes, and makes available for sale
         and inspiring coins            to the public, bronze duplicates of these medals, as well as
   and medals that enable               “list” medals, which are often a part of continuing medal
          commerce, reflect             series, such as the Presidents of the United States and Historic
 American values, advance               Buildings of the United States.

         artistic excellence,           PROTECTION The United States Mint is responsible for
         educate the public             protecting over $240 billion in United States assets stored in
                                        our facilities. The Protection Department safeguards non-Unit-
        by commemorating
                                        ed States Mint assets in our custody, including gold and silver
people, places and events,              bullion reserves held at the United States Bullion Depository
             and fulfill retail         at Fort Knox, Kentucky, as well as United States Mint assets,
          demand for coins.             such as our products, employees, facilities and equipment.


                                              8
GOAL 1: EXCLUSIVE BRAND IDENTITY
The United States Mint is a well-established brand within both
the national and international numismatic community.

       The United States Mint believes building a trusted, highly-recognized brand is vital to expanding
       our customer base, ensuring continued success of numismatic and bullion programs and positively
       affecting the workforce culture.
       THE UNITED STATES MINT BRAND In FY 2009, we conducted a research initiative to
       evaluate our current brand’s strengths and weaknesses. The results highlighted the following
       organizational strengths that our brand should encompass. The United States Mint is a symbol
       of our Nation, whose authority is founded along with the United States by the Constitution. We
       contribute to the well-being of our economy by providing coins necessary to conduct trade and
       commerce. Our products unlock history and inspire discovery. Coins and medals remind us
       of where we come from as well as what is important today. We protect our Nation’s assets,
       particularly safeguarding America’s gold reserves. Finally, our organization is committed to
       public service and the constant pursuit of excellence. Based on the research initiative’s results and
       conclusions, we set out to establish a new branding platform, the foundation upon which all our
       future decisions, both strategic and creative, will be made.
       Our new branding platform centers around one promise: Connecting America through Coins.
       The United States Mint enables experiences that bring people together, starting with everyday
       commerce and extending beyond. Our coins and medals connect people to American history and
       values. Each coin we mint is a small share in the ongoing American experience, linking us in
       an unbroken line to our country’s origins. The promise also highlights our business, increasing
       the public’s recognition of the United States Mint as the exclusive origin of the Nation’s coins
       and medals. In FY 2010, we plan to begin structuring all facets of our organization around this
       branding platform, including all communications and product packaging.
       The foundation of a trusted, highly recognized brand is high quality products and services.
       Maintaining product quality and customer service is critical to attracting new customers, foster-
       ing the United States Mint brand and expanding our customer base into underserved segments
       of the population.
       TRANSITION TO NEW CALL AND FULFILLMENT CENTER The United States Mint tran-
       sitioned to a new call and order fulfilling system on January 3, 2009. In the first few months fol-
       lowing this transition, we experienced some missteps. We did not ensure that initial staffing levels
       for the new call center and warehouse facility were adequate. Speed to answer customer calls,
       call length and order fulfillment all suffered. Customer satisfaction survey respondents reported
       wait times were longest among those who called in January and February of 2009. Satisfaction
       with phone interaction and representatives’ overall knowledge, helpfulness and ability to answer
       questions were also lowest during this time period. Some customers waited more than five weeks to
       receive in-stock products, well over the normal one- to two-week order fulfillment time.
       The United States Mint initiated a rigorous action plan to correct these initial issues. We worked
       to increase staffing levels and improve customer service representative training at the call center.
       We implemented numerous process improvements, such as adjusting the system menu options
       to give call center management more efficient controls. Warehouse processes were streamlined

                                                  9
                                                                     Most coin
                                                                     production
                                                                     starts with
                                                                     coil — rolled-up
                                                                     strips of flat
                                                                     metal. Operators
                                                                     transport and load
                                                                     coil onto a wheel
                                                                     that feeds into
                                                                     a blanking press.
                                                                     From the sheet,
                                                                     the blanking press
                                                                     punches out round,
                                                                     plain-surfaced
                                                                     disks called
                                                                     cut blanks.



according to product demand and availability. Nearly all elements of the action plan were
implemented by the beginning of the third quarter of FY 2009. As a result, wait times, call length
and order fulfillment time began to return to acceptable levels. At the close of FY 2009, more
than 80 percent of calls to the call center were answered within 20 seconds or less. All orders
of in-stock items were fulfilled within four days of receipt. Maintaining and further enhancing
customer service in this area will be a priority in FY 2010.
2009 ULTRA HIGH RELIEF DOUBLE EAGLE GOLD COIN We launched the 2009 Ultra
High Relief Double Eagle Gold Coin for sale to the public on January 22, 2009. First day sales
alone generated approximately $33.7 million in revenue. Unfortunately, we encountered some
problems delivering finished products to these initial customers in a timely manner. Because of
the unavailability of gold planchets, quality issues with the 2009 Ultra High Relief Double Eagle
Gold Coin companion book and incorrect shipping procedures, we suspended shipments of the
product for various intervals to allow for corrective action. Uninterrupted product shipments
resumed in March 2009.
The United States Mint conducted a survey of initial 2009 Ultra High Relief Double Eagle Gold
Coin customers in March and April of 2009. We asked a sample of customers who ordered the
coin on the launch date to complete a questionnaire on their experience. The survey allowed us to
identify and correct problems with call center and order fulfillment systems. It also provided these
valued customers the opportunity to evaluate our performance in supplying this unique product.



                                          10
                      WEB INTEGRATION The United States Mint currently maintains two Web sites: the United
                      States Mint’s public information site (www.usmint.gov) and our e-commerce catalog site
                      (http://catalog.usmint.gov). In the first quarter of FY 2007, we conducted usability studies to eval-
                      uate the utility and convenience of these sites. Studies indicated confusion among some visitors
                      to the two sites. Many accessed the sites to obtain general information on the United States Mint
                      as well as purchase numismatic products online. Visitors reported difficulty navigating between
                      the sites to obtain desired information. Subsequent ongoing surveys conducted on our Web sites
                      further supported these initial findings.
                      In response, we launched the Web Site Integration Project to integrate and consolidate the United
                      States Mint’s public information and e-commerce catalog sites to create a single, holistic online
                      Web presence. This two-year initiative will integrate all existing content and functions. It will also
                      consolidate the technical environments for back-end maintenance and development. An integrated
                      United States Mint Web site will allow for a coherent Internet presence to visitors; a seamless
                      browsing experience; and a comprehensive and comparative collection of Web statistics. Utilizing
                      a common platform, hardware, software and information technology support will reduce operating
                      costs and increase Web site management efficiency. In FY 2009, we began the project by drafting
                      all content requirements and initiating the site’s design phase. We plan to continue integration
                      and development tasks in 2010.




        American
     Eagle Silver
    Bullion coins
      are minted
    at the United
      States Mint
  at West Point.
        The force
          of each
 stamping press
      is adjusted
    according to
      the blank’s
  size, hardness,
design intricacy
        and relief.




                                                                 11
GOAL 2: EFFECTIVE COIN AND MEDAL PORTFOLIO
Our goal is to develop the optimal product portfolio to maximize
our customer base and units sold while minimizing customer
acquisition costs.
      The enactment of various legislation has allowed us to expand product lines in both numismatic
      and circulating coin programs. While sales of both new and core recurring products have been
      strong, we recognize the need to continually make improvements in the portfolio of products
      we offer.
      2009 PRODUCT PORTFOLIO ASSESSMENT In November 2008, we conducted a thorough
      assessment of our numismatic coin and medal product portfolio. At the time, our portfolio
      included more than 550 individual coin and medal products with approximately 10 intersecting
      product lines. The assessment was intended to prioritize current product offerings as well as new
      product investments.
      We evaluated each discretionary product based on its contribution to sales volume. All products
      that consisted of at least one percent of total unit sales were retained for the 2009 product portfolio.
      Of the 550 individual products assessed, 186 products (156 coin and 30 medal offerings) were
      retained in the new portfolio. These retained products made up over 80 percent of the United States
      Mint’s total numismatic revenue and over 95 percent of total numismatic units sold in FY 2008.
      Inventory of all discontinued products was offered to our customers in a special “Last Chance
      Sale.” From November 15, 2008 to December 19, 2008, the United States Mint used this no-
      order-limit sale to deplete inventory of discontinued products. Through the Last Chance Sale,
      we sold about 67,600 units of excess or discontinued inventory, generating approximately $2.7
      million in numismatic revenue. Sales of 2007 annual sets alone generated half of the units sold
      and about 37 percent of the revenue. We will analyze our portfolio annually to ensure that we
      continue to offer products with the broadest appeal to Americans and the numismatic community.
      CONCLUSION OF THE 50 STATE QUARTERS® PROGRAM The United States Mint issued
      the final coin of the 50 State Quarters Program, commemorating Hawaii, in November 2008.
      This unprecedented ten-year initiative honoring the Nation’s states has been hailed as the most
      successful coin program in the Nation’s history. We were proud to spearhead a program with so
      many benefits for the United States. The 50 State Quarters Program met the financial expectations
      of its authorizing legislation. The United States Mint issued 34.3 billion quarters for circulation,
      generating $8.6 billion in revenue and $6.3 billion in seigniorage. We estimate that the program
      generated $4.1 billion in revenue and $3.0 billion in seigniorage that we would not have achieved
      without the program. The sale of 50 State Quarters numismatic products generated another
      $485.4 million in revenue and $137.7 million in earnings and seigniorage through FY 2009.
      Congress envisioned each state’s commemorative quarter design would increase knowledge of
      its history, geography, and culture. We worked with state officials, government representatives,
      citizens groups, historical societies, educators, numismatists and many others to achieve this goal.
      An estimated 3.5 million people participated in the design process for their state’s quarter, either
      through concept submission or voting. About 147 million people collected the commemorative
      quarters. The popularity of the 50 State Quarters Program also afforded us further opportunity


                                                  12
50 State Quarters Numismatic Revenue                              50 State Quarters Numismatic Net Income and Seigniorage
(dollars in millions)                                             (dollars in millions)


 Bags and Rolls                               Quarter Proof Set   Bags and Rolls                             Quarter Proof Set
    $196.8                                         $144.5             $65.8                                       $41.0




          Other
          $17.0                               Silver Quarter              Other                              Silver Quarter
                                                 Proof Set                $2.5                                  Proof Set
                    Maps     First Day Coin                                          Maps   First Day Coin
                                                   $72.2                                                          $15.1
                    $12.0        Covers                                              $2.3       Covers
                                  $42.9                                                          $11.0




                        to educate the Nation’s youth. We provided nearly 6.6 million electronic and hardcopy 50 State
                        Quarters lesson plans for teachers and students to explore each state’s quarter design, history,
                        people and natural resources.
                        Along the way, we endeavored to enhance the program by modernizing coin production to achieve
                        necessary capacities; enriching artistic contributions to coin designs; and improving the processes
                        for design creation, selection and approval. Several commemorative quarter designs received the
                        numismatic world’s most prestigious awards for coin artistry. The 50 State Quarters Program’s
                        success opened the door for a new generation of circulating commemorative coin programs,
                        including the Westward Journey Nickel Series™, the 2009 District of Columbia and U.S. Territo-
                        ries Quarters Program, the 2009 Lincoln Bicentennial One-Cent Coin Program, the Presidential
                        $1 Coin Program, the Native American $1 Coin Program and the United States Mint America
                        the Beautiful Quarters™ Program.
                        2009 DISTRICT OF COLUMBIA AND U.S. TERRITORIES QUARTERS PROGRAM
                        In January 2009, the United States Mint introduced the 2009 District of Columbia and U.S.
                        Territories Quarters Program, a one-year initiative to honor the District of Columbia and the
                        five U.S. Territories. In FY 2009, we minted and issued the first five coins with reverse designs
                        emblematic of the District of Columbia, the Commonwealth of Puerto Rico, Guam, American
                        Samoa and the United States Virgin Islands.
                        The United States Mint issued 432.5 million quarters in the 2009 District of Columbia and U.S.
                        Territories Quarters Program for circulation in FY 2009, generating $108.1 million in revenue
                        and $48.2 million in seigniorage. The sale of 2009 District of Columbia and U.S. Territories
                        Quarters numismatic products generated another $11.3 million in revenue and $6.0 million
                        in earnings and seigniorage. The United States Mint will release the final quarter, honoring the
                        Commonwealth of the Northern Mariana Islands, in November 2009.
                        2009 LINCOLN BICENTENNIAL ONE-CENT COIN PROGRAM In FY 2009, we issued the
                        first three of four one-cent coins in recognition of the bicentennial of President Abraham Lincoln’s
                        birth and the 100th anniversary of the first issuance of the Lincoln Cent. The four coins’ reverse
                        designs each represent a major aspect of President Lincoln’s life.
                        The new one-cent coins were issued at approximately three-month intervals starting with the first
                        coin in January 2009. The United States Mint issued 1.9 billion Lincoln Bicentennial One-Cent
                        Coins for circulation in FY 2009, generating $19.2 million in revenue. We also minted and issued
                        numismatic one-cent coins in the exact metallic content contained in the 1909 one-cent coin.


                                                                                13
                                                            An operator
                                                            at the United
                                                            States Mint
                                                            at Denver feeds
                                                            $1 coin blanks
                                                            into a weigh
                                                            belt that feeds
                                                            the annealing
                                                            furnace, which
                                                            softens blanks
                                                            prior to stamping.



These numismatic versions were included in the United States Mint’s annual set product offerings
and a special Lincoln Coin and Chronicles Set. We also offered specially packaged two-role sets
of the circulating coins for sale directly to the public. The sale of these two-roll sets generated
$5.5 million in revenue and $1.2 million in earnings and seigniorage in FY 2009. A 2009 Lincoln
Bicentennial One-Cent Proof Set is scheduled for release in FY 2010.
$1 COIN PROGRAMS The United States Mint continued America’s tribute to the Nation’s Pres-
idents in FY 2009, issuing four Presidential $1 Coins featuring Presidents Van Buren, Harrison,
Tyler and Polk. We also issued the 2009 Native American $1 Coin, the first in a series of coins with
reverse designs honoring the important contributions made by Indian tribes and individual Native
Americans to the history and development of the United States. The 2009 coin commemorates
the Native American contribution to agriculture. The central figure of “Sacagawea” remains on
the obverse, but reverse designs will change each year to recognize a different contribution.
The Presidential $1 Coin Act (Public Law 109-145) mandates that the United States Mint identify,
analyze and overcome barriers to the robust circulation of $1 coins. Likewise, the Native American
$1 Coin Act (Public Law 110-82) requires the United States Mint to carry out an aggressive,
cost-effective, continuing campaign to encourage commercial enterprises to accept and dispense
Native American $1 coins. Promoting circulation and sustained usage of $1 coins also affords
potential cost-savings for the Federal Government and taxpayers because the coins can be minted
and issued at higher seigniorage per dollar than any other denomination.
FOUR CITY PILOT The United States Mint developed a three-pronged pilot program to promote
circulation of the $1 coins in FY 2008. The pilot focused on recruiting retailers to accept and
dispense $1 coins in small cash transactions and facilitating their ordering of $1 coins through
banks. Print and television advertising and public relations initiatives supported the retailer
recruitment and activation. The marketing campaign centered on the durability and longevity of
the coins; the 100 percent recyclable materials used to produce coinage; and the billions of dollars
the Nation could save over time by using the $1 coins.
From August through November 2008, we launched the pilot in four markets across the United
States to evaluate each strategy and its effectiveness in increasing $1 coin usage. We selected the
following four cities: Grand Rapids, Michigan; Portland, Oregon; Charlotte, North Carolina; and
Austin, Texas. These mid-sized markets not only were easier and more cost effective to manage,
but also were demographically representative of the United States as a whole. We wanted to
introduce and test each strategy on a small scale that, if successful, could be implemented at the
national level.
                                          14
Prior to the pilot, the number of coins the Federal Reserve Banks (FRB) paid out to commercial
banks had been declining. Nationally, FRB $1 coin payments to banks fell 3 percent from the
release of the John Quincy Adams Presidential $1 Coin prior to the pilot to the Martin Van Buren
Presidential $1 Coin release during the pilot. We were able to reverse this trend within each pilot
market and make notable gains. Overall, within the pilot markets, reported $1 coin payments to
commercial banks for the same period increased an estimated 24 percent or 1.8 million coins. While
our investment in the pilot was greater than this return, much of the gain was realized in the later
weeks of the pilot when all stores of the participating retailers had fully converted to $1 coins.
We conducted a national survey to measure transactional usage of $1 coins prior and subsequent
to the pilot. Adults were asked if they had used a $1 coin to pay for something or make a purchase
in the past 12 months. The survey also measured rates of $1 coin possession and awareness. The
baseline survey was conducted in late July before launching any communications. The second
survey was conducted in late November and early December following the pilot’s completion.
Nationally, the percentage of respondents reporting they had used a $1 coin in a transaction de-
clined slightly from 25 percent to 23 percent. Within the four markets, conversely, there was a sta-
tistically significant increase in the usage rate from 29 percent in the baseline survey to 33 percent
following the pilot. This is a considerable achievement given that past campaigns for the Susan B.
Anthony $1 Coin or the Sacagawea $1 Coin were unsuccessful at increasing usage of those coins.
The key lessons we learned from the pilot experience are that retail activation is a driver of $1
coin usage and focusing on large, national chains is essential to establishing robust $1 coin cir-
culation. Six major retailers participated in the pilot. These retailers switched to the $1 coin to
reinforce consumer perceptions of their goodwill, sustainability or “green” efforts. This was the
first time the United States Mint achieved sustained, voluntary corporate commitments to distrib-
ute $1 coins. Working collaboratively with the headquarters staff of a national chain can yield
thousands of outlets across the country accepting and dispensing $1 coins in everyday transac-
tions. In addition to the pilot, we implemented new and enhanced existing efforts to increase $1
coin usage this year.
DIRECT SHIP We continued the Circulating $1 Coin Direct Ship Program throughout FY 2009.
Initiated in June 2008, the Direct Ship Program provides $1 coins for sale directly to banks, small
retailers, and the public in smaller volumes than available through traditional FRB distribution.
In FY 2009, we distributed 85.2 million $1 coins through the Direct Ship Program (62.6 million
Native American $1 Coins and 22.6 million Presidential $1 Coins).
BULK SHIP The United States Mint initiated a Bulk Ship Program in August FY 2009 to offer
an additional mechanism for interested customers to order $1 coins in larger quantities. This
program provides banks and larger retailers the opportunity to purchase a minimum of $140,000
in $1 coins directly from the United States Mint. In the initial two months of the program, we
shipped 1.8 million Presidential $1 Coins through the Bulk Ship Program.
FEDERAL ENTITIES We also continued efforts to assist Federal and other entities in complying
with the requirements of the Presidential $1 Coin Act and the Native American $1 Coin Act. In
late 2008, we worked with the Washington Metro Area Transit Authority (WMATA) to convert
ticket machines at stations throughout Washington, DC and surrounding areas. All WMATA
ticket machines began accepting and dispensing $1 coins in January 2009.

                                           15
GOAL 3: EXCELLENCE IN COIN DESIGN
Our products are exceptional artistic media for expressing
our national character, memorializing our past and embodying
our future.

      The United States Mint recognizes and embraces its responsibility to do more than merely craft
      coins and medals. Coins are one of the most visible and tangible representations of a country.
      Likewise, art is not a mere facet of society, but an embodiment and extension of it. American
      numismatic art should express the national character, memorialize the past, manifest the country’s
      aspirations and embody the future.
      WHAT IS ARTISTIC EXCELLENCE While prior successes in coin and medal design are
      noteworthy, the United States Mint strives to achieve new levels in American numismatic art. Our
      designs have tended to focus on literalism, functionality and the limitations of prescribed design el-
      ements. Too often, designs lacked a unifying balance or transcendent quality that clearly links them
      together as part of the body of American coinage. Ultimately, the United States Mint should produce
      art that serves as the highest aspiration of who we are as a country or what we seek to become.
      In 2009, the United States Mint produced a white paper establishing a philosophic path for
      achieving artistic excellence in the future. This document expressed the United States Mint’s
      genuine desire to regain its place in American art and prioritize art as central to our craft. It es-
      tablished the following five core principles of American numismatic design by which the United
      States Mint will judge our artistic output:
      UNIQUELY AMERICAN While bridging various styles, media and compositions, great American
      art commonly expresses the same intrinsically American themes. Likewise, American coinage
      should manifest a democratic character; liberty and freedom; the American landscape and a
      preference for simplicity; an enterprising spirit; and a struggle to be as great as our principles.
      EXEMPLIFIES THE CURRENT ERA OF CREATION Coin designs should appear distinctly
      modern and of the 21st century by embodying the prevailing artistic notions and conventions of
      the time.
      TELLS A GREAT STORY A great story gives meaning and purpose to a design. Art should
      make a statement whether evoking patriotism, describing Americans’ views of their country or
      memorializing important historic moments.
      ADVANCES THE CRAFT The United States Mint should advance the craft of coin and medal
      design both philosophically and practically. While greater emphasis is typically placed on new
      techniques and emerging technologies, equal weight should be placed on developing a design’s
      intellectual and philosophical context.
      AESTHETICALLY BEAUTIFUL The Nation’s coins and medals should be artistic masterpieces
      rather than mere tokens or representational items. Our works must be of such quality that they
      resonate broadly, providing Americans the opportunity to admire and appreciate the artistry of
      the United States Mint.
      By consistently adhering to these five principles, the United States Mint plans to engender a 21st
      century neo-renaissance in American coin and medal design. Our goal is for American coins and


                                                 16
 Once the Secretary                    medals to be favorably compared with those of the Italian Renaissance, bearing designs that
      of the Treasury                  were considered the pinnacle of medallic art.
     approves a coin
    or medal design,                   In March 2009, we invited members of the Citizens Coinage Advisory Commission (CCAC)
 sculptor-engravers                    to evaluate and score designs of all coins issued in FY 2007 and FY 2008 on the five prin-
        create three-
         dimensional                   ciples. Members scored each design based on how well it embodies each principle on a scale
    models digitally                   from zero to ten. This artistic review scoring process provides an instructive assessment of
    or by traditional                  the artistic quality of our final products. It also provides a means to measure year-to-year
            sculpting.
                                       improvement in artistic excellence, enabling the United States Mint to progress toward
 Sculptor-engravers
     manually sculpt                   superior designs.
  drawings into clay
                                       Scores of FY 2007 and FY 2008 designs served as a baseline for subsequent years. Results
     with traditional
     tools and refine                  clearly indicate our strengths in certain areas and need for improvement in others. Designs
 them using plaster                    scored highest for being uniquely American but much lower for advancing the craft and
   or digitally sculpt                 exemplifying 21st century design. Scores held above the mid-point for telling a great story
  and refine designs
      with innovative
                                       and being aesthetically beautiful. The average annual score for all designs declined slightly
      software tools.                  from 6.1 for FY 2007 designs to 5.9 for FY 2008 designs.
                                       In September 2009, CCAC members scored designs for all coins issued in FY 2009. Unfortu-
                                       nately, scores decreased in all categories from the prior two fiscal years. The largest declines
                                       occurred in uniquely American and aesthetically beautiful categories. The average annual
                                       score fell to 5.0 in FY 2009. We plan to further examine the reasons underlying this decline
                                       and implement several initiatives to enhance performance in FY 2010.

Artistic Review Scores of Coin and Medal Designs
         8.2                                                                        2007          2008         2009
   7.8

               6.7                        6.5                                       6.4
                                                                              6.0                  6.1 5.9
                                                5.8
                     5.4
                           4.9                        5.1                                  5.1               5.0
                                 4.5                        4.6   4.4
                                                                        3.6




    Uniquely         21st Century         Tells a Great     Advances the      Aesthetically          Annual
    American           Design                 Story         Craft of Coin/     Beautiful             Average
                                                            Metal Design


                                                                                             17
RECREATING A MASTERPIECE The 2009 Ultra High Relief Double Eagle Coin is a uniquely
American artistic expression – created by an American sculptor and crafted by an iconic American
institution. In the early 1900s, President Theodore Roosevelt called for a “renaissance” in Ameri-
can coinage. He believed that the coins of the era needed to be more attractive and better embody
America’s national identity and growing preeminence on the world stage. President Roosevelt
appointed Augustus Saint-Gaudens, a renowned sculptor and artist, to redesign the Nation’s
coins. Sharing President Roosevelt’s vision, Saint-Gaudens designed what has been called the
most beautiful coin ever minted in the United States, the 1907 $20 Double Eagle Gold Coin.
Saint-Gaudens and Roosevelt originally desired a high relief version of the 1907 Double Eagle.
Unfortunately, the existing minting process was inadequate, and only a reduced relief coin was
developed and mass produced. Saint-Gaudens’ full vision for the production of an ultra high
relief coin was not realized until 2009.
Through the advent of modern technology, the United States Mint was able to mass produce a con-
temporary, but faithful rendition of Augustus Saint-Gaudens’ original 1907 Double Eagle design.
Employing digital scanning techniques, we captured Saint-Gaudens’ original coin plasters as digital
data. The artwork was then digitally imposed on a spherical basin where cracks and imperfections
were digitally repaired; relief heights were measured and analyzed; and designs were compared to
originals from photographs and specimens held by the Smithsonian Institution. Once obverse and
reverse designs were complete, a computer numerically controlled (CNC) machine using digitally
controlled lasers accurately reproduced the designs on duplicate sets of master tooling.
On November 24, 2008, at the United States Mint at West Point, Director Edmund C. Moy
minted the historic first production strike of the 2009 Ultra High Relief Double Eagle Gold Coin.
The first strike coin was later transferred to the Smithsonian Institution’s National Museum of
American History. With the 2009 Ultra High Relief Double Eagle Gold Coin, the United States
Mint closes one era and opens a new one. This new era is one in which American coins and
medals not only continue to embody America’s unique spirit and identity, but also advance the
craft and signal to the world that we are a country of artists, sculptors and innovators.
COIN AWARDS Three United States Mint coins took top honors at the 2009 Coin of the Year
(COTY) Awards at the World’s Money Fair in Berlin, Germany in February 2009. The COTY
Awards recognize the work of mints worldwide. An international panel of professional numisma-
tists and experts appraise coin submissions on the basis of excellence in artisanship, practicality
and general appeal. Entries span a two-year production period, and finalists are chosen in 10
categories. At the 2009 COTY Awards, the panel of judges designated the 2007 Jamestown
400th Anniversary Commemorative Silver Dollar the “Most Historically Significant Coin.” The
2007 Little Rock Central High School Desegregation 50th Anniversary Silver Dollar received the
COTY Award for the “Best Contemporary Event Coin.” Finally, the George Washington Presi-
dential $1 Coin was honored as the “Most Popular Coin.”




                                         18
GOAL 4: OPERATIONAL EFFICIENCY AND HIGHEST
QUALITY STANDARDS
We continually strive for efficient coin manufacturing and sales
operations. Greater efficiency benefits the American people as
well as our customers.
                The United States Mint is responsible for enabling commerce by minting and issuing circulat-
                ing coins in amounts necessary to meet the needs of the United States. By reducing production
                and administrative costs, the United States Mint is able to transfer larger sums to the Treasury
                General Fund. Greater productivity and efficiency also allow us to keep the sale price of our
                numismatic products as low as practicable for our customers.
                EFFICIENT OPERATIONS IN CURRENT ECONOMIC ENVIRONMENT In FY 2009, the
                worsening economic environment challenged our ability to maintain efficient manufacturing
                operations but also presented opportunities for long-term efficiency gains. Poor economic condi-
                tions, uncertainty regarding traditional investments and concerns about future inflation evidently
                drove investor demand for bullion coins to unprecedented highs in FY 2009. We sold 27.6 million
                ounces of precious metal bullion coins in FY 2009, more than in any other year since the bullion
                program began in 1986. These unprecedented volumes stressed our suppliers, and we temporarily
                limited our bullion coin offerings. We set standard allocation and ordering limits so these scarce
                products were equitably distributed among authorized purchasers. We continued our efforts to
                increase the capacity of our supply chain while also increasing bullion production capacity. Our
                West Point facility acquired an additional press to increase minting capacity and achieved higher
                employee productivity. While demand remained strong, we were able to lift allocation and order-
                ing limits to satisfy all investor demand for 22-karat gold and silver one-ounce bullion coins in
                June 2009.
                In contrast, low economic activity diminished demands on our circulating operations by reduc-
                ing the need for coin used in commerce. Individuals and businesses returned more coins to the
                banking system, thus reducing the need for newly minted coin. Accordingly, our circulating coin
                production fell to a historic 45-year low. We instituted an organization-wide hiring freeze and
                implemented a comprehensive plan to take advantage of this period of low production by per-
                                                            forming overdue maintenance. We completed certain
Total Circulating Coin Production (coins in millions)       capital improvements that are only possible when
 30,000
                                                            circulating production lines are idle. Low production
                                                            volumes also afforded time to provide skill and
 25,000
                                                            safety awareness training to our employees.
20,000


15,000


10,000


 5,000


    0
         1969       1979     1989      1999      2009




                                                         19
                                                                                The physical
                                                                                vapor deposition
                                                                                coating system
                                                                                deposits a hard
                                                                                protective
                                                                                coating onto the
                                                                                surface of dies
                                                                                to extend die life
                                                                                and improve coin
                                                                                appearance.



CAPITAL INVESTMENTS Each year, we plan capital improvements based on the individual
needs of our facilities. We place highest priority on capital investments that ensure employee
safety, as well as compliance with environmental and regulatory standards. Our Denver facility,
which dates back to 1904, requires significant long-term infrastructure improvements. In FY
2009, we delivered two major initiatives to replace the fire sprinkler system and upgrade the elec-
trical switchgear in Denver. Each multi-million dollar project involved extensive work to bring
the historic building up to modern standards, enhance employee safety and ensure reliable long-
term operations. In FY 2009, we also initiated design and construction work for entry and exit
infrastructure improvements at the United States Bullion Depository at Fort Knox.
New coin legislation mandates a significant portion of our capital spending priorities. In FY 2009,
we purchased a new coining press and edge-lettering tooling for our Philadelphia facility to produce
coins required by the America’s Beautiful National Parks Quarter Dollar Coin Act (Act) (Public
Law 110-456). The Act requires the United States Mint to mint and issue larger five-ounce silver
bullion coins with the same designs as the America the Beautiful Quarters™ coins starting in
2010. Finally, capital investments that enhance productivity ensure more efficient manufacturing
operations in the long term. In FY 2009, we deployed physical vapor deposition (PVD) coating
systems at Philadelphia and San Francisco to deposit chrome onto the surface of dies. Chrome is
required to extend production life and improve coin appearance. This new surface coating process
replaces older chrome electroplating techniques that are not as environmentally and worker
friendly. The new PVD coating system eliminates these concerns and should extend die production
life and improve stamping productivity. We will start up a third PVD coating system at our West
Point facility in FY 2010.




                                         20
                                                                            Quality checks
                                                                            are conducted
                                                                            on the 2009
                                                                            United States Mint
                                                                            Uncirculated Coin
                                                                            Set automated
                                                                            packaging line
                                                                            at the United
                                                                            States Mint
                                                                            at Philadelphia.
                                                                            Each 2009 set
                                                                            contains two
                                                                            folders of 18
                                                                            coins, one folder
                                                                            from the United
                                                                            States Mint
                                                                            at Philadelphia
                                                                            and one from
                                                                            the United States
                                                                            Mint at Denver.



HIGHEST QUALITY STANDARDS Product quality is a top priority for the United States Mint.
To produce coins befitting the “Mint Condition” standard, we continually monitor and enhance
our production processes. As a case in point, the 2009 Lincoln Bicentennial One-Cent Coin
Program required the United States Mint to offer numismatic pennies in proof and uncirculated
quality in the exact metallic content as the 1909 penny (an alloy containing 95 percent copper,
3 percent zinc and 2 percent tin). Unfortunately, this metallic composition proved highly suscep-
tible to tarnishing. In response, a team of quality, engineering and internal control employees
established a control plan to reduce tarnishing in the copper alloy blanks and improve quality
controls over blank supply. We conducted repeated experiments to improve control of the bur-
nishing process (the cleaning and chemical treating of blanks). We subjected blanks to enhanced
quality checks, particularly steam tests that accelerate aging and indicate the effectiveness of each
change in the burnishing process. After the two month effort, our team significantly reduced the
tarnishing in the copper alloy blanks. Even with this effort, we know that we are fighting the laws
of chemistry and that, over time, the pennies using this composition will tarnish in much the same
way as the coins did in 1909.
Moving forward, we plan to further strengthen the quality controls in place for our current
products. We will work with the entire supply chain to proactively identify potential sources of
quality problems so that appropriate controls are in place to ensure problems are quickly identi-
fied and corrected.


                                          21
                      GOAL 5: OPTIMAL WORKFORCE AND WORKPLACE CULTURE
                      We are committed to providing our employees a fair, safe and
                      rewarding workplace.

                           Rate of Injury and Illness Cases per 100 Full-Time Workers

ated Metal Industry   15
                                                                                             The United States Mint strives to develop our work-
                      12                                                                     force to ensure that each employee has the necessary
                                                                                             knowledge, skills and qualities to effectively and
                      9                                                                      meaningfully contribute to our mission.

                      6                                                                          EMPLOYEE SAFETY The United States Mint
                                                                                                 placed renewed emphasis on improving employee
        2.50          3                                                                          safety in FY 2009. From 2005 through 2008, our
                                                                                                 recordable case rate increased each year. To reverse
                      0
          2009             1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 this upward trend, we began emphasizing safety per-
gures                                                                                            formance at the highest levels and communicating
                                         preventative information throughout each facility. We also initiated processes to control exposure
                                         to severe hazards and conducted extensive safety compliance audits.
                                       SENIOR LEVEL FOCUS ON SAFETY Heightened safety awareness began with our executives
                                       and union leaders. On a monthly basis, executives were briefed on injury and illness rates, any in-
                                       cidents that had occurred and the corrective action taken. Executives also discussed the progress
                                       of initiatives to reduce risk and prevent future incidents. The focus on safety spread from the
                                       senior level throughout the organization. We launched a monthly safety topic program to educate
                                       employees on subjects such as reporting unsafe working conditions, handling hazardous materi-
                                       als and maintaining clean workspace. Safety topics were presented each month at the Director’s
                                       staff meeting. Management then disseminated the information on these topics to all employees.
                                       ROOT CAUSE ACCIDENT INVESTIGATION When injuries did occur, we identified root
                                       causes and implemented corrective action to prevent recurrence. Often improper training, inad-
                                       equate supervision, defective tools or dangerous equipment result in employee injury or illness.
                                       Root cause investigation identifies such systematic deficiencies as the source of accidents rather
                                       than blaming individual error. After each investigation, we recorded and monitored the contrib-
                                       uting systematic causes to implement corrective action throughout all facilities.
                                       SAFETY AUDITS We audited all facilities for regulatory compliance with occupational health
                                       and safety standards in FY 2009. Minor deficiencies were corrected within 30 days. Action plans
                                       were developed and implemented for deficiencies requiring more extensive corrective action. In
                                       FY 2010, we will expand audits to address safety and health systems and practices. Our overall
                                       goal is a safety management system focused on proactive evaluation of safety efforts rather than
                                       reacting to incidents when they occur. Audits will evaluate management systems including training
                                       and education, communication, documentation, emergency preparedness and monitoring. Such
                                       audits target systematic deficiencies likely to result in unsafe working conditions, injuries or illness.




                                                                                        22
                                                    Cone-ended
                                                    durable steel
                                                    blank dies are
                                                    inspected before
                                                    the coin designs
                                                    are hubbed
                                                    (mechanically
                                                    pressed) into
                                                    the dies.



As a result of these efforts, we experienced a record safety year. Our total recordable case
rate fell to 2.50 recordable injuries and illnesses per 100 full-time workers, the lowest
rate since we began reporting the figure in FY 1996. Only 40 injuries and illnesses
occurred in FY 2009, down 43.7 percent from the 71 injuries and illnesses that occurred
last year. The United States Mint also significantly reduced the number of work-related
injuries or illnesses resulting in lost workdays. Lost time accidents fell to 13 in FY 2009
from 20 in FY 2008.
EMPLOYEE SATISFACTION On a biennial basis, the United States Office of Per-
sonnel Management (OPM) administers the Federal Human Capital Survey (FHCS) to
all full-time, permanent employees of the Federal Government. The survey measures
employees’ perceptions regarding how effectively their agency manages its workforce.
FHCS results are used to develop the Best Places to Work in the Federal Government
rankings. The United States Mint has performed poorly relative to other Federal agencies
in recent years. In rankings based on the 2008 FHCS, the United States Mint ranked
201 out of 216 Federal agencies surveyed. We ranked even lower in the subcategories of




                                 23
Percentage of Employees Reporting

  Job Satisfaction        Recommend United States Mint
                                                                   74             effective leadership and employee skills and mis-
                                                         68
                     62                                       61
                                                                        66        sion match. Declining employee satisfaction affects
    60                                   60
                          57
          55                                                                      our overall productivity and efficiency. Dissatisfied
                                                                                  employees typically are less motivated, have higher
                                                                                  absentee and accident rates and limit themselves
                                                                                  to fewer duties.
                                                                                 The United States Mint uses a semi-annual Em-
      2006            2008                     2007               2008      2009
                                                                                 ployee Pulse-Check Survey (Pulse-Check) to obtain
      FHCS            FHCS                 Pulse-Check Pulse-Check Pulse-Check   current feedback on employee satisfaction. This
 Note: Reccommend United States Mint data not available in 2007 Pulse-Check
                                                                                 survey contains several questions based on the
                                                                                 FHCS and the Best Places to Work in the Federal
                  Government drivers. It is administered to all employees and often indicates higher employee sat-
                  isfaction compared to the biennial FHCS that is administered to only a sample of employees.
                     FY 2009 Pulse-Check results indicate some improvement in employee satisfaction from the
                     2008 FHCS results. A majority of employees, 74 percent, expressed satisfaction with their jobs,
                     significantly higher than the 62 percent of employees expressing job satisfaction in the 2008
                     FHCS. Nearly seven out of ten, 66 percent, employees reported they would recommend the
                     United States Mint as a good place to work, a significant improvement from the 57 percent of
                     employees recommending the bureau in the 2008 FHCS.
                     While Pulse-Check results suggest some improvement, the 2008 FHCS results indicate that our
                     employees continued to perceive significant deficiencies in the United States Mint’s work environ-
                     ment and leadership. We are developing new approaches and strategies to address these concerns
                     and cultivate an engaged and committed organization.
                     IMPROVING EFFECTIVE LEADERSHIP The United States Mint initiated the second phase of
                     the Leadership Development Program (LDP II) in FY 2009. LDP is a three-phase training program
                     designed to provide managers with the knowledge, skills and ability they need to more effectively
                     lead employees. The initial phase of LDP received the prestigious Leadership Development Award
                     for outstanding work in leadership from the Training Officers’ Consortium in June 2009.
                     All supervisors, managers and executives were required to attend LDP II in FY 2009. This sec-
                     ond phase focused on systems thinking, coaching for accountability and performance, leading
                     in complex situations, internal controls and fraud awareness, labor relations and values-based
                     leadership. The United States Mint plans to implement the third phase of LDP in FY 2010. This
                     phase will reinforce previous training and provide more in-depth tools and techniques for leaders
                     to successfully meet future challenges.
                     IMPROVING EMPLOYEE SKILLS AND MISSION MATCH The United States Mint conducted
                     an assessment survey to identify skill and competency gaps for all job series in late 2008. Based
                     on the results, our executives are examining new training and improvement opportunities to close
                     identified gaps.




                                                                             24
Nearly half of the current United States Mint workforce will be eligible for retirement in the
next five years. Loss of key personnel may affect some of the agency’s most critical occupa-
tional categories. We are addressing these concerns through the Manufacturer Certification and
Apprenticeship Program (MCAP). The MCAP is an on-the-job training and certification program
for wage grade employees in the coin and die divisions of our Philadelphia and Denver facilities.
This program is intended to create a highly skilled and flexible manufacturing workforce. As the
MCAP progresses, all currently specialized, lower grade jobs will be combined into two higher
grade positions which incorporate all functions necessary to produce either coins or dies. Em-
ployees advance gradually through the MCAP by completing classroom and on-the-job training
in each production skill requirement. Employees must demonstrate proficiency in operations to
achieve certification and advance to the next program level. At the top level, employees will be
qualified to perform any job in the entire coin or die production process. As of the close of FY
2009, over 40 percent of eligible die division employees and approximately 14 percent of eligible
coin division employees had applied for the MCAP.
In FY 2010, we will start developing the Employee Development Program. This program will
focus on developing knowledgeable and effective employees. The United States Mint also con-
tinually provides various training and development opportunities for our employees, including
on-the-job-training, apprenticeships, self-study programs, Treasury Learning Management Sys-
tem courses and professional certification programs.
IMPROVING OUR GOALSHARING PROGRAM Every employee at the United States Mint
can contribute to improved performance. The United States Mint’s Goalsharing Program recog-
nizes and rewards the achievement of employees working collectively to meet our strategic goals.
The program awards non-executive employees under acceptable performance standing for achiev-
ing certain safety, quality and customer service performance milestones. At the end of FY 2008,
there was a perception that the Goalsharing Program was not effectively rewarding the agency’s
successes. This negatively affected workforce morale. Several elements seemed to reflect only
external forces, and employees did not feel empowered to achieve desired performance results.
This year, we improved the Goalsharing Program by working with employees to attain greater
transparency and more direct links between employee efforts and performance results. We formed
a committee of managers and employees from every facility and all organizational departments
to develop and champion the Goalsharing Program throughout the year. The committee met to
define the program objectives and review performance regularly. Monthly executive meetings
to review our progress towards meeting strategic goals included specific briefings on the Goal-
sharing Program. The Goalsharing committee and union representatives were all encouraged to
review the drivers of performance and implement strategies or initiatives to improve results. Our
senior executives urged all managers and supervisors to meet with employees regularly to discuss
ways to exceed our performance goals.




                                        25
                            Patricia M. Greiner
                            United States Mint Chief Financial Officer


MANAGEMENT’S DISCUSSION AND ANALYSIS
Message from the Chief Financial Officer:
       I am pleased to present the United States Mint’s financial statements as an integral part of the FY
       2009 Annual Report. As an organization, our priority is to report accurate financial data while
       objectively and consistently executing our fiscal responsibilities. For FY 2009, our independent
       auditors rendered an unqualified opinion. The United States Mint remains committed to
       accountability and integrity in our financial and management responsibilities.
       The United States Mint faced a challenging environment in FY 2009. As a result of the economic
       environment, the cash generated from the operation of the United States Mint Public Enterprise
       Fund declined from prior years. We transferred only $475 million to the Treasury General Fund
       this year, about 37 percent less than our FY 2008 transfer.
       Shipments of circulating coin to the Federal Reserve Banks (FRB) decreased 40 percent from
       last year, generating considerably lower seigniorage from circulating operations. Sales of bul-
       lion coins soared beyond last year’s record high. Initially, we had difficulty acquiring sufficient
       precious metal planchets from our suppliers to meet bullion coin demand. To address supply
       constraints, the United States Mint allocated all available planchet supply to the bullion pro-
       grams, for which we are legislatively mandated to fulfill public demand. We also worked with
       suppliers to increase the amount of planchets available for purchase. Consequently, the United
       States Mint expanded production from previous levels of eight to ten million ounces annually to
       over 27 million ounces in FY 2009. While demand remained strong throughout the year, we were
       able to lift allocation and ordering limits and satisfy all investor demand for 22-karat gold and
       silver bullion one-ounce coins by the third quarter of FY 2009.
       In prior years, volatility in precious metal markets forced the United States Mint to remove
       products from sale and perform irregular re-pricing, resulting in lost sales and dissatisfied
       customers. Starting on January 12, 2009, the United States Mint implemented a new pricing
       policy for numismatic products containing gold and platinum. The policy applies a standard
       methodology for adjusting product prices on a weekly basis. The new strategy is more transpar-
       ent for our customers and ensures that product prices better reflect the current market values
       of gold and platinum.




                                                26
Strong financial management and internal controls are the foundation of an efficient and effective
organization. In FY 2009, we conducted a comprehensive assessment of the effectiveness of inter-
nal controls over financial reporting. Based on the results, we can provide unqualified assurance
that internal controls over financial reporting are operating effectively and there are no material
weaknesses in the design or operation of financial reporting and inventory management.
Last year, the United States Mint reported one material weakness related to inventory manage-
ment. We developed a comprehensive Corrective Action Plan to strengthen internal controls and,
as a result, made considerable improvements in inventory accuracy. Over the past two years,
total inventory accuracy at the United States Mints at Philadelphia and Denver improved from 69
percent and 94 percent, respectively, to over 99 percent at each facility. While no material weak-
nesses were found this year, we reported four significant deficiencies.
We remained committed to improving the United States Mint’s internal controls in FY 2009. I,
along with my Deputy Chief Financial Officer, personally conducted mandatory internal control
and fraud awareness training for all supervisors and managers. We also continue to monitor and
close all internal and external audit findings and corrective actions.
The United States Mint prepared its financial statements in compliance with accounting standards
issued by the Federal Accounting Standards Advisory Board (FASAB). The FASAB is designated
by the American Institute of Certified Public Accountants as the standard-setting body for the
financial statements of Federal government entities, with respect to establishment of the United
States Generally Accepted Accounting Principles.
We close FY 2009 continuing to provide the American people high-quality products and good
financial results given our current operating environment. We are committed to presenting our
results in a complete and understandable manner to our stakeholders, the American public. We
hope you find our annual report useful and transparent. We look forward to maintaining our 217
year-old tradition of service to the American public and our collectors in FY 2010.

Sincerely,




Patricia M. Greiner
Chief Financial Officer




                                         27
Circulating Coinage

              Circulating coins are shipped to the Federal Reserve Banks (FRB) as needed to replenish inven-
              tory and fulfill commercial demand. Revenue from the sale of circulating coins is recognized at
              face value when coins are shipped. Earned revenue equals the gross costs incurred to make and
              distribute coins. Seigniorage is the difference between the face value and the gross costs of coins
              shipped. Seigniorage adds to the Federal Government’s cash balance, but unlike the payment of
              taxes or other receipts, seigniorage does not involve a transfer of financial assets from the public.
              Instead, it arises from the exercise of the Federal Government’s sovereign power to create money
              and the public’s desire to hold financial assets in the form of coins. The President’s Budget excludes
              seigniorage from receipts and treats it as a means of financing the national debt.
              FY 2009 RESULTS Total circulating coins shipped to the FRB decreased 47.8 percent to 5,207
              million pieces in FY 2009 from 9,974 million pieces in FY 2008. The total dollar value of
              circulating shipments to the FRB fell to $777.6 million from $1,294.5 million last year. Declining
              economic conditions drove much of the declines in shipments and revenue. Demand for cir-
              culating coins for use in cash transactions fell as retail activity weakened further in FY 2009.
              Commercial banks and other financial institutions curtailed orders for coins and returned excess
              coins to the FRB. In response to these conditions, the FRB decreased orders for newly minted
              coins. The FRB also began targeting lower inventory levels, further reducing their need for circu-
              lating coinage from the United States Mint.
              Shipments of one-cent and $1 coins fell to a lesser extent because of collector interest in rotating
              coin designs. While shipments of five-cent and dime coins declined 68.0 percent and 66.5 percent,
              respectively, one-cent shipments fell only 39.0 percent from FY 2008.
              Shipments of $1 coins declined only 3.4 percent from last year. Shipments were augmented by
              the Circulating $1 Coin Direct Ship Program, which contributed 18.6 percent of total $1 coin
              shipments in FY 2009. The strength of the $1 coin relative to other denominations lessened the
              impact of lower volumes on the total dollar value of shipments. The $1 coin alone made up 58.9
              percent of the total value of coins shipped to the FRB in FY 2009, compared to 36.7 percent
              last year.
              Rotating designs among other factors did not, however, thwart declining demand for quarter-
              dollar coins. Shipments of quarter-dollar coins to the FRB fell 61.6 percent from last year. Low
              demand for newly minted quarter-dollar coins is, in part, due to the FRB’s accumulation of the
              coins. Quarter-dollar coins are the most prevalent denomination in FRB inventory, consisting of
              approximately 39.6 percent (about 3.7 billion coins) of total monthly ending inventory in Septem-
              ber 2009. Shipments of quarter-dollar coins are expected to remain low until the FRB inventory
              of the coins is depleted to levels that more reflect requirements for enabling commerce.

CIRCULATING (dollars in millions except seigniorage per $1 issued)
                                                                                                           % Change
                                        2009          2008              2007        2006        2005       2008 to 2009

Value of Shipments                  $   777.6      $ 1,294.5         $ 1,727.8   $ 1,271.9   $ 1,144.8         (39.9%)
Gross Cost                          $   349.8      $ 588.3           $ 722.6     $ 603.4     $ 445.4           (40.5%)
  Cost of Goods Sold                $   251.7      $ 491.3           $ 629.1     $ 508.8     $ 359.5           (48.8%)
  Sales, General & Administrative   $    98.1      $    97.0         $    93.5   $    94.6   $    85.9           1.1%
Seigniorage                         $   427.8      $ 706.2           $ 1,005.2   $ 668.5     $ 699.4           (39.4%)
Seigniorage per $1 Issued           $    0.55      $    0.55         $    0.58   $    0.53   $    0.61

                                                          28
                                            Value of Shipments by Denomination (dollars in millions)                                                                          2009 Value of Shipments by Denomination
                                               $ 800
                                                              2007           2008            2009
                                                                                                                                                                                     $1
                                               $ 700
                                                                                                                                                                                    58.9%                                                            One-Cent
                                                                                                                                                                                                                                                      4.2%
                                               $ 600
                                                                                                                                                                                                                                                           Five-Cent
                                               $ 500                                                                                                                                                                                                         1.3%
                                                                                                                                                                                                                                                             Dime
                                               $ 400
                                                                                                                                                                                                                                                             4.6%
                                               $ 300

                                               $ 200

                                               $ 100                                                                                                                                                                                                Quarter-Dollar
                                                                                                                                                                                                                                                       31.0%
                                                 $0
                                                           One-Cent      Five-Cent         Dime                             Quarter-Dollar          $1




                              Base Metal Daily Official Spot Price (prices per metric tonne in dollars)
                              Copper                                                                                                Zinc                                                                                        Nickel
                         10,000                                                                                             5,000                                                                                      60,000


                                                                                                                            4,000                                                                                      50,000




                                                                                                                                                                                              Price per metric tonne
                          8,000
Price per metric tonne




                                                                                                   Price per metric tonne




                                                                                                                                                                                                                       40,000
                                                                                                                            3,000
                          6,000                                                                                                                                                                                        30,000
                                                                                                                            2,000
                                                                                                                                                                                                                       20,000
                          4,000
                                                                                                                            1,000
                                                                                                                                                                                                                       10,000

                          2,000                                                                                                 0                                                                                          0
                                      Sep-05      Sep-06     Sep-07    Sep-08     Sep-09                                                   Sep-05        Sep-06   Sep-07   Sep-08    Sep-09                                              Sep-05   Sep-06     Sep-07    Sep-08   Sep-09




                                                  Weakened demand reduced both the gross cost and seigniorage from circulating operations.
                                                  Circulating gross costs fell to $349.8 million in FY 2009 from $588.3 million in FY 2008. Lower
                                                  volumes reduced circulating cost of goods sold (COGS) by 48.8 percent to only $251.7 million
                                                  in FY 2009. COGS made up a smaller portion of the total value of shipments because of reduced
                                                  metal expenses. Market prices of copper, nickel and zinc fell to five-year lows in the beginning
                                                  of FY 2009. The average daily spot price for copper and zinc decreased 42.5 percent and 37.4
                                                  percent, respectively, from FY 2008 to FY 2009. The average daily spot price for nickel declined
                                                  49.3 percent over the same time period. Selling, general and administrative (SG&A) expenses
                                                  increased slightly from $97.0 million in FY 2008 to $98.1 million in FY 2009.
                                                  Seigniorage declined 39.4 percent to $427.8 million in FY 2009 from $706.2 million last year.
                                                  Strong relative demand for the $1 coin supplemented the return from circulating operations. The
                                                  $1 coin generated the vast majority, approximately 74.5 percent, of total seigniorage in FY 2009.
                                                  While SG&A increased only slightly from FY 2008, it made up a greater portion of the total
                                                  value of coin shipped. This offset the reduction in COGS relative to the total value of shipments,
                                                  and seigniorage per dollar issued remained at $0.55 in FY 2009.




                                                                                                                                                29
          Seigniorage per Dollar Issued by Denomination
 $1.00
              2007     2008         2009
 $0.80
 $0.60
 $0.40
 $0.20
 $0.00
($0.20)
($0.40)
($0.60)
($0.80)
($1.00)
            One-Cent    Five-Cent          Dime   Quarter-Dollar        $1




              CIRCULATING UNIT COSTS While per-unit metal costs decreased in FY 2009, the total unit cost
              of all denominations except the five-cent coin increased from last year. When production volumes
              decline because of low demand, production costs are spread over fewer units. In FY 2009, this
              offset the per-unit gains from lower base metal expenses. The dime coin unit cost increased about
              1.3 cents in FY 2009 largely because the 1.8 cent increase in per-unit production cost offset the
              1.0 cent reduction in per-unit metal cost. Higher per-unit SG&A cost also drove up the total unit
              cost for the dime, quarter-dollar and $1 coin denominations in FY 2009.
              Slight increases in per-unit production and SG&A costs did not offset the 3.1 cent decline in the
              five-cent coin’s per-unit metal cost. Accordingly, the five-cent coin’s total unit cost declined 2.8
              cents from FY 2008. Despite this, the unit cost for both one-cent and five-cent denominations
              remained above face value for the fourth consecutive fiscal year. Low demand for the five-cent
              coin largely reduced the overall loss the United States Mint incurred from producing these
              denominations in FY 2009. One-cent and five-cent coins were produced at a loss of $22.0 million,
              down 53.2 percent from the FY 2008 loss of about $47.0 million.
              While metal prices fell from prior peaks in FY 2009, base metal expenses continue to make up the
              largest portion of circulating production cost. Toward the end of FY 2009, market prices for copper,
              nickel and zinc all started to increase to FY 2007 levels. The Secretary of the Treasury currently
              has the authority to select the metal composition of the $1 coin, as well as alter the percentage
              of copper and zinc in the one-cent coin. The compositions of five-cent, dime, quarter-dollar
              and half-dollar coins are codified by statute. Any authority to change the metal composition of
              these denominations requires legislative action.




                                                                   30
                                                                                                                            $1 coin blanks
                                                                                                                            are fed into
                                                                                                                            a stamping press
                                                                                                                            where two dies
                                                                                                                            (obverse and
                                                                                                                            reverse) strike
                                                                                                                            both sides
                                                                                                                            of the planchet
                                                                                                                            at the same
                                                                                                                            time, impressing
                                                                                                                            the design into
                                                                                                                            the planchet and
                                                                                                                            creating a coin.


SHIPMENTS TO FEDERAL RESERVE BANKS, COSTS AND SEIGNIORAGE BY DENOMINATION
(coins and dollars in millions except seigniorage per $1 issued)

FY 2009                             One-Cent        Five-Cent              Dime    Quarter-Dollar Half-Dollar          $1     Mutilated          Total
                                                                                                                               & Other
Coins Shipped to the FRB                3,218             207             358           965             –           459               –        5,207
Value of Shipments                  $      32.2     $       10.3     $     35.7    $    241.3    $      –       $   458.1     $       –    $     777.6
Gross Cost                          $      52.0     $       12.5     $     20.2    $    109.1    $   (0.1)      $   139.4     $    16.7    $     349.8
  Cost of Goods Sold                $      52.0     $       12.2     $     16.6    $     80.3    $   (0.2)      $    74.1     $    16.7    $     251.7
  Sales, General & Administrative   $         –     $         0.3    $      3.6    $     28.8    $    0.1       $    65.3     $       –    $      98.1
Seigniorage                         $     (19.8)    $        (2.2)   $     15.5    $    132.2    $    0.1       $   318.7     $   (16.7)   $     427.8
Seigniorage per $1 Issued           $     (0.61)    $      (0.21)    $     0.43    $     0.55    $      –       $    0.70     $       –    $      0.55


FY 2008                             One-Cent        Five-Cent              Dime    Quarter-Dollar Half-Dollar          $1     Mutilated          Total
                                                                                                                               & Other
Coins Shipped to the FRB                5,272             647            1,070         2,510            –           475               –      9,974
Value of Shipments                  $       52.7    $       32.3     $     107.1   $     627.6   $      –       $   474.8     $       –    $ 1,294.5
Gross Cost                          $       74.9    $       57.1     $      46.6   $     273.5   $      –       $   125.4     $    10.8    $ 588.3
  Cost of Goods Sold                $       74.7    $       57.1     $      40.3   $     235.2   $      –       $    73.2     $    10.8    $ 491.3
  Sales, General & Administrative   $        0.2    $          –     $       6.3   $      38.3   $      –       $    52.2     $       –    $ 97.0
Seigniorage                         $      (22.2)   $      (24.8)    $      60.5   $     354.1   $      –       $   349.4     $   (10.8)   $ 706.2
Seigniorage per $1 Issued           $      (0.42)   $      (0.77)    $      0.56   $      0.56   $      –       $    0.74     $       –    $ 0.55


FY 2007                             One-Cent        Five-Cent              Dime    Quarter-Dollar Half-Dollar          $1     Mutilated          Total
                                                                                                                              & Other
Coins Shipped to the FRB                7,084           1,289            2,247         2,711            –           690               –     14,021
Value of Shipments                  $       78.1    $       64.4     $     224.8   $     677.8   $      –       $   682.7     $       –    $ 1,727.8
Gross Cost                          $     118.2     $     122.9      $      92.1   $     265.3   $      –       $   108.5     $    15.6    $ 722.6
  Cost of Goods Sold                $     118.2     $     122.9      $      81.2   $     231.3   $      –       $    59.9     $    15.6    $ 629.1
  Sales, General & Administrative   $          –    $          –     $      10.9   $      34.0   $      –       $    48.6     $       –    $    93.5
Seigniorage                         $      (40.1)   $      (58.5)    $     132.7   $     412.5   $      –       $   574.2     $   (15.6)   $ 1,005.2
Seigniorage per $1 Issued           $      (0.51)   $      (0.91)    $      0.59   $      0.61   $      –       $    0.84     $       –    $    0.58




                                                                              31
                                                            Dies for proof
                                                            quality coins are
                                                            hand polished
                                                            at the United States
                                                            Mint at Denver
                                                            to improve coin
                                                            appearance.



UNIT COST OF PRODUCING AND DISTRIBUTING COINS BY DENOMINATION

FY 2009                           One-Cent    Five-Cent      Dime    Quarter-Dollar Half-Dollar        $1


Cost of Goods Sold                $ 0.0159    $ 0.0579    $ 0.0456   $ 0.0816      $      –       $ 0.1599
Sales, General & Administrative   $      –    $ 0.0014    $ 0.0101   $ 0.0298      $      –       $ 0.1424
Distribution to FRB               $ 0.0003    $ 0.0010    $ 0.0008   $ 0.0017      $      –       $ 0.0017
Total Expenses                    $ 0.0162    $ 0.0603    $ 0.0565   $ 0.1131      $      –       $ 0.3040


FY 2008                           One-Cent    Five-Cent      Dime    Quarter-Dollar Half-Dollar        $1


Cost of Goods Sold                $ 0.0139    $ 0.0877    $ 0.0371   $ 0.0925      $      –       $ 0.1517
Sales, General & Administrative   $      –    $      –    $ 0.0059   $ 0.0153      $      –       $ 0.1098
Distribution to FRB               $ 0.0003    $ 0.0006    $ 0.0006   $ 0.0012      $      –       $ 0.0026
Total Expenses                    $ 0.0142    $ 0.0883    $ 0.0436   $ 0.1090      $      –       $ 0.2641


FY 2007                           One-Cent    Five-Cent      Dime    Quarter-Dollar Half-Dollar        $1


Cost of Goods Sold                $ 0.0165    $ 0.0949    $ 0.0357   $ 0.0841      $      –       $ 0.0835
Sales, General & Administrative   $      –    $      –    $ 0.0048   $ 0.0125      $      –       $ 0.0705
Distribution to FRB               $ 0.0002    $ 0.0004    $ 0.0004   $ 0.0012      $      –       $ 0.0033
Total Expenses                    $ 0.0167    $ 0.0953    $ 0.0409   $ 0.0978      $      –       $ 0.1573




                                             32
Bullion Products

              The United States Mint mints and issues gold, silver and platinum bullion coins to authorized
              purchasers through the American Eagle Bullion Coin and American Buffalo Bullion Coin Programs.
              The bureau purchases precious metal on the open market at the time of an order. Coins are sold
              to authorized purchasers at the same market price paid for the metal plus a premium to cover bul-
              lion program operating costs. Authorized purchasers agree to maintain an open, two-way market
              for these coins, assuring their liquidity. This allows the public to purchase and sell coins at the
              prevailing market price, adjusting for any premium the authorized purchaser applies. The purpose
              of the bullion program is to make precious metal coins available at minimal cost to investors.
              Consequently, the United States Mint manages the bullion program to a nominal net margin.
              FY 2009 RESULTS Uncertainty surrounding traditional investments and concerns about future
              inflation drove investor demand for bullion coins to exceptional highs in FY 2009. After declin-
              ing at the close of FY 2008, precious metal market prices rose steadily during FY 2009. As of
              September 30, the market price of gold, silver and platinum increased 12.6 percent, 26.9 percent
              and 28.2 percent, respectively, from 2008 to 2009.
              The United States Mint sold 27.6 million ounces of gold, silver and platinum bullion coins in FY
              2009, up 9.2 million ounces from FY 2008 and a 132.3 percent increase over average annual
              bullion sales since FY 2005. Accordingly, total bullion revenue reached a record high of $1,694.8
              million in FY 2009, up 78.6 percent from $948.8 million in FY 2008.
              The volume of precious metal planchets the United States Mint’s suppliers can timely provide
              limits the number of bullion products the bureau can produce and sell. In FY 2009, the United
              States Mint was initially unable to acquire sufficient planchets to satisfy the unprecedented
              investor demand for bullion coins. Standard allocation and ordering limits were set so that scarce
              products were equitably distributed among authorized purchasers. To address supply constraints,
              the United States Mint allocated all available planchet supply to production of 22-karat gold and
              silver one-ounce bullion coins. The United States Mint also diverted planchets from discretionary
              numismatic and bullion programs, increased production capacity and worked with suppliers to
              expand planchet supply. Consequently, the bureau expanded bullion planchet supply from previ-
              ous levels of eight to ten million ounces annually to over 27 million ounces in FY 2009. While
              demand remained strong, the United States Mint was able to lift allocation and ordering limits
              and satisfy all investor demand for 22-karat gold and silver one-ounce bullion coins in June 2009.



BULLION (dollars in millions)
                                                                                                         % Change
                                       2009          2008          2007          2006          2005      2008 to 2009

Sales Revenue                       $ 1,694.8    $   948.8     $   356.1     $   536.6     $   270.7         78.6%
Gross Cost                          $ 1,662.1    $   931.0     $   351.6     $   524.4     $   265.2         78.5%
  Cost of Goods Sold                $ 1,650.0    $   922.6     $   350.0     $   523.0     $   264.4         78.8%
  Sales, General & Administrative   $     12.1   $      8.4    $      1.6    $      1.4    $      0.8        44.0%
Net Income                          $     32.7   $     17.8    $      4.5    $     12.2    $      5.5        83.7%
Bullion Net Margin                       1.9%         1.9%          1.3%          2.3%          2.0%




                                                       33
                                                                                                                                MANAGEMENT’S DISCUSSION AND ANALYSIS

        Revenue by Bullion Program (dollars in millions)                                                          2009 Revenue by Bullion Program
$1,400
                                                       2007               2008           2009            American Eagle Gold
$1,200                                                                                                         75.4%                                         American Eagle Platinum
                                                                                                                                                                     1.4%
                                                                                                                                                                    American Buffalo Gold
$1,000
                                                                                                                                                                           1.2%

     $800


     $600
                                                                                                                                                                    American Eagle Silver
                                                                                                                                                                          22.0%
     $400


     $200


       $0
                 American            American          American Eagle             American
                Eagle Gold          Eagle Silver         Platinum                Buffalo Gold




                         High sales volumes drove gross cost up to $1,662.1 million in FY 2009 from $931.0 million in FY
                         2008. Cost of goods sold (COGS) increased to $1,650.0 million in FY 2009 from $922.6 million
                         last year but made up the same portion of total sales revenue. Bullion sales generated a larger portion
                         of the United States Mint’s total earnings. Consequently, a greater portion of sales, general and
                         administrative (SG&A) expenses was allocated to the bullion program in FY 2009. Bullion SG&A
                         increased to $12.1 million in FY 2009 from $8.4 million last year. Bullion net income increased
                         83.7 percent to $32.7 million in FY 2009 from $17.8 million in FY 2008. The bullion program
                         was successfully managed to just below the standard net margin of two percent.
                         AMERICAN EAGLE PROGRAM The United States Mint devoted precious metal planchet
                         supply to production of American Eagle 22-karat gold and silver one-ounce coins in FY 2009.
                         Consequently, sales of these coins drove most of the revenue growth in FY 2009. American Eagle
                         22-karat gold bullion sales revenue increased 184.3 percent to $1,278.2 million from $449.6 million
                         in FY 2008. Revenue from the sale of all American Eagle 22-karat gold products alone made up
                         75.4 percent of total bullion sales revenue in FY 2009.
                         Starting in calendar year 2009, the United States Mint suspended production of American Eagle
                         22-karat gold fractional denominations (one-half, one-fourth or one-tenth ounces) and all Ameri-
                         can Eagle platinum coins. The burreau placed priority on production of one-ounce American
                         Eagle gold coins to maximize planchet supply. The United States Mint began fully satisfying de-
                         mand for the one-ounce coin in June 2009. The bureau began offering American Eagle 22-karat
                         gold fractional denominations for sale in October 2009. There is no statutory requirement for the
                         United States Mint to mint or issue platinum bullion coins.


     Precious Metal Daily Spot Price (prices per troy ounce in dollars)
     Silver                                                                 Gold                                                            Platinum
25                                                                    1,200                                                         2,500


                                                                      1,000
20                                                                                                                                  2,000

                                                                          800
15                                                                                                                                  1,500
                                                                          600

10                                                                                                                                  1,000
                                                                          400


 5                                                                        200                                                        500
              Sep-05    Sep-06     Sep-07    Sep-08     Sep-09                        Sep-05    Sep-06   Sep-07   Sep-08   Sep-09                 Sep-05   Sep-06      Sep-07   Sep-08      Sep-09




                                                                                                 34
              American Eagle silver bullion sales revenue rose 21.4 percent to $372.0 million from $306.4 million
              last year. Net income from American Eagle gold increased from $10.2 million in FY 2008 to
              $25.5 million in FY 2009. American Eagle silver net income increased to $6.1 million from $5.0
              million last year.
              All American Eagle platinum revenue recorded in FY 2009 resulted from the sale of calendar year
              2008 coin inventory in the first quarter. American Eagle platinum sales revenue still increased 5.8
              percent to $23.7 million in FY 2009 from $22.4 million in FY 2008. Net income for American
              Eagle platinum coins increased slightly from $0.9 million to $1.0 million.
              AMERICAN BUFFALO PROGRAM American Buffalo 24-karat gold bullion sales revenue de-
              clined considerably in FY 2009 because planchet supply was diverted to the American Eagle gold
              program. Revenue from the sale of American Buffalo gold coins decreased 87.7 percent to $20.9
              million from $170.4 million in FY 2008. American Buffalo gold net income fell from $1.7 million
              to $0.1 million.
              After fully satisfying demand for American Eagle 22-karat gold one-ounce coins, the United
              States Mint began acquiring planchets for the American Buffalo program in the fourth quar-
              ter of FY 2009. The bureau resumed American Buffalo 24-karate gold one-ounce coin sales in
              October 2009.


BULLION REVENUE, COST AND NET INCOME OR SEIGNIORAGE BY PROGRAM
(dollars in millions)
FY 2009                             American     American       American         American          Total
                                    Eagle Gold   Eagle Silver   Eagle Platinum   Buffalo Gold
Sales Revenue                       $ 1,278.2    $ 372.0        $     23.7       $    20.9      $ 1,694.8
Gross Cost                          $ 1,252.7    $ 365.9        $     22.7       $    20.8      $ 1,662.1
  Cost of Goods Sold                $ 1,245.0    $ 361.9        $     22.4       $    20.7      $ 1,650.0
  Sales, General & Administrative   $      7.7   $    4.0       $      0.3       $     0.1      $     12.1
Net Income                          $     25.5   $    6.1       $      1.0       $     0.1      $     32.7
Bullion Net Margin                       2.0%       1.6%             4.2%            0.5%            1.9%


FY 2008                             American     American       American         American          Total
                                    Eagle Gold   Eagle Silver   Eagle Platinum   Buffalo Gold
Sales Revenue                       $ 449.6      $ 306.4        $    22.4        $ 170.4        $ 948.8
Gross Cost                          $ 439.4      $ 301.4        $    21.5        $ 168.7        $ 931.0
  Cost of Goods Sold                $ 435.3      $ 299.3        $    21.2        $ 166.8        $ 922.6
  Sales, General & Administrative   $    4.1     $    2.1       $     0.3        $    1.9       $    8.4
Net Income                          $ 10.2       $    5.0       $     0.9        $    1.7       $ 17.8
Bullion Net Margin                     2.3%         1.6%            4.0%            1.0%           1.9%



FY 2007                             American     American       American         American          Total
                                    Eagle Gold   Eagle Silver   Eagle Platinum   Buffalo Gold
Sales Revenue                       $ 110.3      $ 110.2        $    18.1        $ 117.5        $ 356.1
Gross Cost                          $ 109.1      $ 109.0        $    17.7        $ 115.8        $ 351.6
  Cost of Goods Sold                $ 108.7      $ 108.6        $    17.5        $ 115.2        $ 350.0
  Sales, General & Administrative   $    0.4     $    0.4       $     0.2        $    0.6       $    1.6
Net Income                          $    1.2     $    1.2       $     0.4        $    1.7       $    4.5
Bullion Net Margin                     1.1%         1.1%            2.2%            1.4%           1.3%




                                                       35
Numismatic Products

             The United States Mint prepares and distributes a variety of numismatic products directly to the
             public. The value of sales of numismatic products is considered earned revenue in the financial
             statements. The net return from numismatic operations is calculated by subtracting the program’s
             gross costs from sales revenue. A main objective of numismatic operations is to keep the sale price
             of products as low as practicable for customers. The program is managed to a 15 percent net
             margin overall to ensure sale prices are as low as practicable and returns are sufficient to fund
             numismatic operating costs.
             FY 2009 RESULTS Retail sales of numismatic versions of the United States Mint’s circulating
             and commemorative coins and medals weakened in FY 2009. Numismatic sales revenue plus
             earned revenue from the sale of circulating coins fell 21.0 percent to $440.0 million from $557.2
             million last year. The United States Mint offered fewer numismatic products in FY 2009 because
             precious metal planchets were diverted to the bullion program. Quality issues also delayed or
             prevented the release of certain annual sets in FY 2009. Additionally, poor economic conditions
             may have suppressed consumer spending on collectibles as sales of available recurring products
             declined from prior years.
             Lower sales volumes reduced numismatics gross costs 16.0 percent to $398.9 million from
             $474.8 million in FY 2008. Cost of goods sold (COGS) decreased to $329.7 million but made
             up a greater portion of numismatic sales revenue. Numismatic sales, general and administrative
             (SG&A) expenses declined 20.2 percent to $69.2 million but remained fairly consistent relative
             to revenue. Weakened demand reduced numismatic program net income and seigniorage to $41.1
             million in FY 2009 from $82.4 million in FY 2008.
             Gross cost made up a greater portion of numismatic sales revenue, reducing the net margin to
             9.3 percent in FY 2009 from 14.8 percent in FY 2008. A lower net margin is not directly adverse
             to the United States Mint’s numismatic operations. The reduced margin means that the United
             States Mint offered numismatic products to customers at lower sales prices than sufficient to
             achieve the standard 15 percent margin. Prices were set for products assuming a sales revenue
             distribution comparable to prior fiscal years. However, product unavailability and weakened de-
             mand challenged pricing assumptions. Sales volumes shifted in favor of lower margin recurring
             products and against higher margin precious metal products. Also, fewer products available for
             sale requires the products that did contribute to the FY 2009 numismatic results to bear more
             allocated costs and assume more numismatic administrative expenses.


NUMISMATIC (dollars in millions)
                                                                                                     % Change
                                      2009        2008            2007        2006          2005     2008 to 2009

Sales Revenue                       $ 440.0   $  557.2        $  551.5    $  514.9      $  355.4        (21.0%)
Gross Cost                          $ 398.9   $  474.8        $  475.6    $  427.7      $  258.9        (16.0%)
  Cost of Goods Sold                $ 329.7   $  388.1        $  396.7    $  346.2      $  180.1        (15.0%)
  Sales, General & Administrative   $ 69.2    $   86.7        $   78.9    $   81.5      $   78.8        (20.2%)
Net Income & Seigniorage            $ 41.1    $   82.4        $   75.9    $   87.2      $   96.5        (50.1%)
Numismatic Net Margin                  9.3%     14.8%           13.8%       16.9%         27.2%
Seigniorage Portion                 $ 19.3    $   22.5        $   27.1    $   13.9      $   23.3        (14.2%)




                                                         36
                                                      Automated laser
                                                      engraving machines
                                                      cut edge lettering into
                                                      tooling, which is later
                                                      used to press lettering
                                                      onto the edge of coins.



GOLD AND PLATINUM PRODUCT PRICING In January 2009, the United States Mint imple-
mented a new strategy for pricing numismatic products containing gold and platinum. Previously,
volatile precious metal markets forced the bureau to haphazardly suspend sales and re-price
products whenever a product price diverged significantly from the market price. The new strategy
includes an itemized pricing structure for gold and platinum numismatic products. The structure
indicates prices for each product based on a range of the average weekly market price for gold
and platinum. If the market value moves to a higher or lower range, product prices will increase
or decrease in corresponding increments. The new strategy is more transparent and responsive to
changes in market prices.
RECURRING PROGRAMS Recurring programs include high quality, specially presented products
based on the Nation’s circulating coinage. These products include the United States Mint Proof
Set™, the United States Mint Silver Proof Set™, the United States Mint Uncirculated Coin Set™
and the United States Mint Presidential $1 Coin Proof Set. Revenue from recurring programs
decreased 18.6 percent to $199.8 million in FY 2009 from $245.5 million in FY 2008. Lower
sales volumes reduced net income 49.0 percent from $19.4 million in FY 2008 to $9.9 million
in FY 2009.
Sales revenue from recurring programs declined, in part, because of quality issues the United
States Mint encountered with the 2009 Lincoln Bicentennial One-Cent Coin Program. In compli-
ance with the program’s authorizing legislation, the bureau included numismatic one-cent coins
with the exact metallic content of the 1909 penny in the United States Mint 2009 Proof Set and

                                        37
Revenue by Numismatic Program (dollars in millions)                                 2009 Revenue by Numismatic Program
$250
                                           2007         2008          2009                              American Buffalo
                                                                                                            5.8%
                                                                                    Recurring                   Commemorative
$200
                                                                                     45.4%                         4.9%

                                                                                                                   Sale of Circulating
$150                                                                                                                     5.8%


$100                                                                                                               American Eagle
                                                                                                                      12.6%

$ 50
                                                                                                           Ultra High Relief
                                                                                                                25.5%
 $0
                   Ultra High   American   American   Commem-      Sale of
       Recurring
                     Relief      Eagle      Buffalo    orative   Circulating




                   2009 United States Mint Uncirculated Coin Set. The 95 percent copper alloy one-cent coins were
                   highly susceptible to tarnishing. The United States Mint delayed release of the annual sets to ad-
                   dress the quality defects. The United States Mint 2009 Uncirculated Coin Set was not released
                   for sale until FY 2010. Consequently, revenue from uncirculated set sales alone fell 76.9 percent
                   from $30.3 million in FY 2008 to approximately $7.0 million in FY 2009.
                   2009 ULTRA HIGH RELIEF DOUBLE EAGLE GOLD COIN Sales of the 2009 Ultra High
                   Relief Double Eagle Gold Coin began on January 22, 2009, and generated $112.4 million in
                   revenue in FY 2009. The 2009, Ultra High Relief Double Eagle Gold Coin was the highest
                   revenue generating numismatic product, contributing 25.5 percent of total sales revenue in FY
                   2009. The product’s sales helped offset declining revenue in other collectible precious metal
                   programs because of product unavailability. Net income from the sale of the 2009 Ultra High
                   Relief Double Eagle Gold Coin totaled $6.4 million in FY 2009.
                   Minor costs incurred for the 2009 Ultra High Relief Double Eagle Gold Coin in FY 2008 were
                   grouped with the American Buffalo program in the FY 2008 annual report. FY 2008 American
                   Buffalo program costs and earnings are restated net of 2009 Ultra High Relief Double Eagle Gold
                   Coin costs in this report.
                   AMERICAN EAGLE PROGRAM American Eagle gold, silver and platinum coins are offered in
                   proof and uncirculated quality as part of the numismatic program. In FY 2009, the United States
                   Mint suspended production of American Eagle numismatic products to divert precious metal
                   planchet supply to bullion coin production. Because of product unavailability, revenue from
                   the sale of American Eagle products fell 66.8 percent to $55.1 million in FY 2009 from $166.0
                   million in FY 2008. All revenue recorded in FY 2009 resulted from the sale of calendar year 2008
                   American Eagle numismatic products in the initial two quarters of FY 2009. American Eagle
                   program net income fell from $28.6 million to $5.2 million in FY 2009.
                   AMERICAN BUFFALO PROGRAM As with the American Eagle program, the United States
                   Mint temporarily ceased production of American Buffalo gold numismatic products in FY 2009.
                   As a result of product unavailability, revenue from American Buffalo products sales fell 67.4
                   percent to $25.7 million in FY 2009 from $78.8 million in FY 2008. American Buffalo program
                   net income fell to $1.5 million in FY 2009 from $7.8 million last year.




                                                                               38
                                                    Once proof set
                                                    lenses are assembled,
                                                    a case packer
                                                    automatically inserts
                                                    them into 2009
                                                    United States Mint
                                                    Proof Set boxes.



The United States Mint began acquiring planchets for the numismatic program in the fourth
quarter of FY 2009. The bureau resumed sales of the American Buffalo gold proof one-ounce
coin and the American Eagle platinum proof one-ounce coin in October 2009.
COMMEMORATIVE COIN PROGRAMS Revenue from the sale of commemorative coins, less
surcharges paid to recipient organizations, fell to $21.6 million in FY 2009 from $37.3 million
in FY 2008. Two commemorative programs were launched in FY 2009. The Abraham Lincoln
Commemorative Silver Dollar Program generated $16.5 million in revenue and $4.5 million in
eligible surcharges for the recipient organization. The Louis Braille Bicentennial–Braille Literacy
Silver Dollar Program generated $6.8 million in revenue and $1.9 million in eligible surcharges
for the recipient organization.
Commemorative coins programs are managed on a calendar year basis. FY 2009 figures include
results from the American Bald Eagle Recovery and National Emblem Commemorative Coin
Program, initiated in calendar year 2008. Truncating program results to fiscal years can result in
negative net income even though no single commemorative coin program generated a loss.
NUMISMATIC SALES OF CIRCULATING COINAGE The United States Mint sells certain
circulating coins through numismatic channels. Revenue from these sales is recognized as the face
value of circulating coin sold in the same way as circulating sales to the FRB. The total face value
from the sale of circulating coinage fell 14.2 percent to $25.4 million in FY 2009 from $29.6
million in FY 2008. Seigniorage from the numismatic sale of circulating coins is transferred to
the Treasury General Fund as off-budget receipts. Seigniorage decreased to $19.3 million in FY
2009 from $22.5 million last year.


                                         39
                                                                                                 $1 coin blanks
                                                                                                 are inspected
                                                                                                 and then
                                                                                                 transported
                                                                                                 to the next
                                                                                                 step in the
                                                                                                 Manufacturing
                                                                                                 process —
                                                                                                 Annealing —
                                                                                                 which uses
                                                                                                 heat to
                                                                                                 soften blanks.



NUMISMATIC REVENUE, COST AND NET INCOME OR SEIGNIORAGE BY PROGRAM
(dollars in millions)

FY 2009                             Recurring   Ultra High   American   American   Commemorative Numismatic Sale     Total
                                                Relief       Eagle      Buffalo                  of Circulating

Sales Revenue                       $ 199.8     $ 112.4      $ 55.1     $ 25.7     $ 21.6         $ 25.4           $ 440.0
Gross Cost                          $ 189.9     $ 106.0      $ 49.9     $ 24.2     $ 22.8         $ 6.1            $ 398.9
  Cost of Goods Sold                $ 152.9     $ 88.9       $ 43.6     $ 21.9     $ 19.1         $ 3.3            $ 329.7
  Sales, General & Administrative   $ 37.0      $ 17.1       $ 6.3      $ 2.3      $ 3.7          $ 2.8            $ 69.2
Net Income/Seigniorage              $ 9.9       $ 6.4        $ 5.2      $ 1.5      $ (1.2)        $ 19.3           $ 41.1
Numismatic Net Margin                  5.0%        5.7%        9.4%       5.8%      (5.6%)         76.0%              9.3%



FY 2008                             Recurring   Ultra High   American   American   Commemorative Numismatic Sale     Total
                                                Relief       Eagle      Buffalo                  of Circulating

Sales Revenue                       $ 245.5     $ 0.0        $ 166.0    $ 78.8     $ 37.3         $ 29.6           $ 557.2
Gross Cost                          $ 226.1     $ 0.3        $ 137.4    $ 71.0     $ 32.9         $ 7.1            $ 474.8
  Cost of Goods Sold                $ 174.8     $ 0.1        $ 117.1    $ 64.7     $ 27.6         $ 3.8            $ 388.1
  Sales, General & Administrative   $ 51.3      $ 0.2        $ 20.3     $ 6.3      $ 5.3          $ 3.3            $ 86.7
Net Income/Seigniorage              $ 19.4      $ (0.3)      $ 28.6     $ 7.8      $ 4.4          $ 22.5           $ 82.4
Numismatic Net Margin                  7.9%          –         17.2%      9.9%      11.8%          76.0%            14.8%



FY 2007                             Recurring   Ultra High   American   American   Commemorative Numismatic Sale     Total
                                                Relief       Eagle      Buffalo                  of Circulating

Sales Revenue                       $ 189.8     $    –       $ 220.1    $ 59.9     $ 45.6         $ 36.1           $ 551.5
Gross Cost                          $ 181.5     $    –       $ 190.5    $ 54.3     $ 40.3         $ 9.0            $ 475.6
  Cost of Goods Sold                $ 134.6     $    –       $ 171.0    $ 50.3     $ 35.8         $ 5.0            $ 396.7
  Sales, General & Administrative   $ 46.9      $    –       $ 19.5     $ 4.0      $ 4.5          $ 4.0            $ 78.9
Net Income/Seigniorage              $ 8.3       $    –       $ 29.6     $ 5.6      $ 5.3          $ 27.1           $ 75.9
Numismatic Net Margin                  4.4%          –         13.4%      9.3%      11.6%          75.1%            13.8%




                                                             40
Transfer to the Treasury General Fund

             As required by Public Law 104-52, the United States Mint deposits all receipts from operations
             and programs into the United States Mint Public Enterprise Fund (PEF). Periodically throughout
             the year, the bureau transfers amounts in the PEF determined to be in excess of required financing
             sources to the Treasury General Fund. The PEF retains amounts required to support ongoing
             United States Mint operations and programs.
             The United States Mint’s operations yielded considerably lower returns in FY 2009 compared to
             prior fiscal years. Circulating receipts historically generate the vast majority of the PEF’s transfer to
             the Treasury General Fund. Low demand for newly minted circulating coins in FY 2009 generated
             significantly lower seigniorage amounts for the PEF. Consequently, the United States Mint PEF
             generated a $475.0 million return to the Treasury General Fund, a 36.7 percent decrease from
             the $750.0 million return transferred in FY 2008.
             OFF-BUDGET TRANSFER The off-budget transfer is seigniorage, the financing source result-
             ing from the sale of circulating coins. Seigniorage arises from the Federal Government exercising
             its sovereign power to create money. The President’s Budget excludes the off-budget transfer from
             receipts and treats it as a means of financing the national debt. The comparatively low level of
             seigniorage generated in FY 2009 reduced the off-budget transfer 40.1 percent to $440.0 million
             from $735.0 million in FY 2008.
             ON-BUDGET TRANSFER The on-budget transfer consists of the prior fiscal year net revenue
             from operations (excluding seigniorage). This represents numismatic (including bullion) net pro-
             gram revenues less the net cost of protection of assets. The United States Mint retains the net
             revenue from the prior fiscal year operations pending the completion of the financial statements
             audit. Until that time, the amount is considered permanently not available as a funding source for
             PEF operations. The on-budget transfer is treated as receipts and available to reduce the deficit or
             fund current Federal Government operations or programs. Resulting from FY 2008 net revenue
             from operations, the FY 2009 on-budget transfer totaled $35.0 million. The FY 2008 on-budget
             transfer from FY 2007 net revenue from operations totaled $15.0 million.

Oﬀ-Budget Transfer (dollars in millions)                    On-Budget Transfer (dollars in millions)

                   782
  730                         735
          666                                                                 84



                                        440
                                                                 45                      43
                                                                                                             35


                                                                                                  15



 2005     2006     2007       2008      2009                    2005          2006       2007     2008       2009


             TRANSFERS TO THE TREASURY GENERAL FUND (dollars in millions)
                                                                                                                     % Change
                                       2009        2008                2007               2006               2005    2008 to 2009

             On-Budget               $ 35.0    $    15.0        $       43.0         $     84.0          $    45.0       133.3%
             Off-Budget              $ 440.0   $   735.0        $      782.0         $    666.0          $   730.0       (40.1%)
             Total Transfer          $ 475.0   $   750.0        $      825.0         $    750.0          $   775.0       (36.7%)

                                                           41
Performance Goals, Objectives and Results

      As mandated by the Government Performance & Results Act (GPRA) of 1993, agencies are to
      identify critical activities, devise pertinent performance measures, and report on these activities
      to the President and Congress. In FY 2008, the United States Mint developed new strategic goals
      focused on brand identity, product portfolio, artistic excellence, improving efficiency, and devel-
      oping an optimal workforce. The organization’s progress in achieving each of these goals was
      presented in earlier sections in this report. To assess performance on primary budget activities,
      the United States Mint monitors seven key performance measures.
      CUSTOMER SATISFACTION INDEX (CSI) The United States Mint conducts a quarterly
      Customer Satisfaction Measure Tracking Survey among a random sample of active customers.
      The survey is intended to capture customer satisfaction with the United States Mint’s performance
      as a coin supplier and the quality of specific numismatic products. CSI is a single quantitative
      score of survey results.
      CSI was 88.3 percent in FY 2009, exceeding the target of 88.0 percent and increasing slightly
      from the FY 2008 result of 87.5 percent. Customer satisfaction with product quality remained
      strong with 96.1 percent of respondents highly satisfied with the quality of products. About 80.5
      percent of respondents reported high overall satisfaction with the United States Mint’s perfor-
      mance as a coin supplier, up somewhat from 79.5 percent in FY 2008.
      The United States Mint expects to improve upon customer service in FY 2010 by continuing to
      monitor the bureau’s call center and order fulfillment system to maintain and exceed standards
      of service. The bureau is also implementing an initiative to integrate and consolidate the United
      States Mint’s public information and e-commerce catalog sites. The improved single Web site will
      be easier for customers to navigate and obtain desired information.
      NUMISMATIC CUSTOMER BASE The numismatic customer base consists of the total number
      of unique purchasers within a fiscal year. A unique purchaser consists of an account number and
      address and name combination without a prior purchase in the fiscal year.
      The numismatic customer based totaled 1.06 million in FY 2009, below the target of 1.40 million.
      The United States Mint customer retention and acquisition performance declined because the bu-
      reau was unable to offer several core numismatic products for sale after January 2009. Economic
      conditions may have also curtailed customer spending on collectibles from prior years.
      The United States Mint began to fully satisfy bullion demand in the later months of the fiscal year.
      Consequently, the bureau hopes to offer some numismatic products for sale in FY 2010 that were
      unavailable in FY 2009. The United States Mint is also planning a national advertising campaign
      and outreach related to the upcoming America the Beautiful Quarters™ Program and America the
      Beautiful Silver Bullion Coins™ Program in FY 2010.




                                                42
                                                               Circulating
                                                               coins are stored
                                                               in bulk bags prior
                                                               to and during
                                                               shipment to the
                                                               Federal Reserve
                                                               Banks. The United
                                                               States Mint
                                                               Police safeguards
                                                               coins and all
                                                               other assets held
                                                               at the facilities.



NUMISMATIC NET MARGIN Numismatic net margin is the return to numismatic operations,
calculated as program net income divided by total program sales revenue. The general statutory
framework for the sale of United States Mint numismatic items provides for cost recovery (i.e.,
avoiding any indirect taxpayer burden on these programs). Therefore, the numismatic program
is managed to a 15 percent net margin to ensure sale prices are as low as practicable and returns
are sufficient to fund numismatic operating costs.




                                        43
                                                                             Administrative
                                                                             and oversight
                                                                             functions are
                                                                             performed at the
                                                                             United States Mint
                                                                             Headquarters in
                                                                             Washington, D.C.



Numismatic net margin was 9.3 percent in FY 2009, below the target of 15 percent. Precious metal
supply constraints prevented the United States Mint from selling some of its core numismatic
products in FY 2009, significantly inhibiting the bureau’s ability to meet the net margin target. A
reduced margin means that the bureau offered numismatic products to customers at lower sales
prices than sufficient to achieve the 15 percent margin. This is not an unfavorable result for the
United States Mint’s numismatic operations. The United States Mint will review pricing practices
in FY 2010 to ensure that numismatic sales revenue is sufficient to fund long-term operations
while also maintaining reasonable prices for customers.
SEIGNIORAGE PER DOLLAR ISSUED Seigniorage per dollar issued is the return to circulating
operations, calculated as seigniorage divided by the total face value of circulated coinage shipped
to Federal Reserve Banks (FRB).
Seigniorage per dollar issued was $0.55 in FY 2009, above the target of $0.54. Weakened demand
reduced the United States Mint’s return from circulating operations in FY 2009. Base metal
expenses and the mix of circulating coin ordered by the FRB largely determine seigniorage per
dollar issued performance. Toward the end of FY 2009, market prices for copper, nickel and zinc
all started to increase to FY 2007 levels. The United States Mint expects production volumes to
remain low in FY 2010.
PRODUCTION PERCENT DEVIATION FROM NET PAY Production percent deviation from
net pay is the absolute value of the percent fiscal year total circulating coin production varies
from the total net pay less any FRB inventory adjustment. The United States Mint is responsible
for providing the Nation’s coinage in sufficient quantity to meet the needs of commerce. The
FRB is responsible for distributing coinage to the commercial banking sector. To accomplish its
mission, the FRB maintains coin inventories, which commercial banks can withdraw from or
deposit into. The difference between coins withdrawn and coins deposited is referred to as
net-pay and represents the demand for coinage. To ensure inventories are adequate to meet
demand, the United States Mint produces coinage in sufficient quantities to replenish the system.
The deviation of circulating coin production from net pay indicates how well the United States
Mint fulfills its core mission of minting and issuing coins to enable commerce.




                                         44
Budget Performance Measures

                                            2009 Result    2009 Target          2008           2007       2006          2005

Customer Satisfaction Index (CSI)                88.3%          88.0%          87.5%          90.5%      90.5%        n/a
Numismatic Customer Base                    1.06 million   1.40 million   1.27 million   0.97 million       n/a       n/a
Numismatic Net Margin                               9%            15%            15%            14%        17%       27%
Seigniorage per Dollar Issued                   $ 0.55         $ 0.54         $ 0.55         $ 0.58     $ 0.53     $ 0.61
Production Percent Deviation from Net Pay         6.5%         Baseline            n/a            n/a       n/a       n/a
Protection Cost per Square Foot                 $ 31.57        $ 31.75        $ 31.76          31.29      32.49     32.43
Employee Confidence in Protection                  81%            83%            81%            81%        82%       84%



              Total production deviated 6.5 percent from net pay in FY 2009. This was a baseline year for the
              performance measure so no target was set. Monthly net-pay figures remained at 30-year lows for
              nearly all denominations. In the first quarter of FY 2009, the FRB significantly reduced forecasted
              orders for the remainder of the fiscal year. The United States Mint cut production accordingly.
              PROTECTION COST PER SQUARE FOOT Protection cost per square foot is the Protection
              Department’s total operating cost divided by the area of usable space of the United States Mint.
              Usable space is defined as 90% of total square footage. Operating costs exclude depreciation.
              Total square footage of usable space is relatively constant and only changes because of major
              events such as the addition or removal of a facility. The measure indicates the Protection Depart-
              ment’s cost efficiency in safeguarding United States Mint facilities, employees and assets.
              Protection cost per square foot decreased to $31.57 in FY 2009 from $31.76 last year. The FY
              2009 result was $0.18 below the target of $31.75. The Protection Department reduced total
              operating cost by approximately $250,000 (0.6 percent) from FY 2008 by curtailing expenses
              for other services and supplies and materials. The Protection Department will continue efforts to
              contain costs while fulfilling protection responsibilities in FY 2010.
              EMPLOYEE CONFIDENCE IN PROTECTION The Protection Department is responsible for
              providing a safe and secure workplace for United States Mint employees. The Employee Con-
              fidence in Protection measure indicates how well the Protection Department is achieving this
              objective. It is the percentage of United States Mint employees reporting a favorable response to
              their confidence in the Protection Department’s performance in safeguarding United States Mint
              assets and assets in the custody of the United States Mint.
              Survey results indicated that 81 percent of employees reported confidence in the Protection De-
              partment’s ability to safeguard the United States Mint in FY 2009. This was consistent with FY
              2008 performance but below the 83 percent target.
              The Protection Department is working to automate employee entry and exit at all United States
              Mint facilities. This is the most visible role that police officers play in the typical workday of most
              employees. The Protection Department plans to increase communication about these and other
              efforts that the police officers undertake to serve and protect employees while safeguarding assets
              under United States Mint control.




                                                           45
Analysis of Systems, Controls and Legal Compliance

      The United States Mint is responsible for establishing and maintaining effective internal control
      over financial reporting, which includes safeguarding of assets and compliance with laws and
      regulations. The United States Mint has made a conscious effort to meet the internal control
      requirements of the Federal Manager’s Financial Integrity Act (FMFIA), the Federal Financial
      Management Improvement Act (FFMIA), the Office of Management and Budget (OMB) Circular
      A-123, and the Reports Consolidation Act of 2000. The organizations under the United States
      Mint’s purview are operating in accordance with the procedures and standards prescribed by the
      Comptroller General and OMB guidelines.
      The systems of management controls for the United States Mint are designed to ensure that:
      a) programs achieve their intended results;
      b) resources are used consistent with overall mission;
      c) programs and resources are free from waste, fraud and mismanagement;
      d) laws and regulations are followed;
      e) controls are sufficient to minimize any improper or erroneous payments;
      f) performance information is reliable;
      g) systems security is in substantial compliance with all relevant requirements;
      h) continuity of operations planning in critical areas is sufficient to reduce risk to reasonable
           levels; and
      i) financial management systems are in compliance with Federal financial systems standards, i.e.,
          FMFIA Section 4 and FFMIA.
      For all United States Mint responsibilities, we provide herein unqualified assurance that the above
      listed management control objectives, taken as a whole, were achieved by our organization during
      FY 2009. Specifically, this assurance is provided relative to Sections 2 and 4 of the FMFIA. We fur-
      ther assure that our financial management systems are in substantial compliance with requirements
      imposed by the FFMIA.
      In 2009, we conducted the mandatory Department of the Treasury evaluation of the effectiveness
      of the United States Mint’s internal controls over financial reporting in accordance with OMB
      Circular A-123, Management’s Responsibility for Internal Control, Appendix A. Based on the
      results of this evaluation, the United States Mint can provide unqualified assurance that internal
      control over financial reporting as of June 30, 2009, is operating effectively and no material
      weaknesses were found in the design or operation of the internal controls over financial reporting.




                                                46
In addition, the United States Mint has committed to maintaining effective internal control as
demonstrated by the following actions:
• Annual audits of the United States Mint’s financial statements pursuant to the Chief Financial
   Officers Act, as amended, including a) information revealed in preparing the financial statements;
   b) auditor’s reports on the financial statements; c) internal controls and compliance with laws
   and regulations and other materials related to preparing financial statements.
• Tracking and closure of corrective actions identified in the Financial Statement Audit and
   A-123 Assessment.
• Annual mandatory internal control training for all executives, managers and supervisors as part
   of the United States Mint Leadership Development Program.
• Internal management and program reviews conducted for the purpose of assessing
   management controls.
• Annual Action Items developed by the United States Mint’s executive team to implement
   organization-wide initiatives and promote internal efficiencies, cultural accountability and
   greater public awareness.
• Reviews of financial systems for requirements compliance in conjunction with OMB Circular
   A-127 and FFMIA.
• Reviews of systems, applications and contingency plans conducted pursuant to the Computer
   Security Act of 1987 (40 U.S.C. § 759 note) and OMB Circular A-130, Management of Federal
   Information Resources.
• Annual assessments, reviews and reporting performed in compliance with the Improper Payment
   Information Act (IPIA).
• Reviews and reporting in compliance with the Federal Information Security Management Act
   (FISMA).
The United States Mint has made significant improvement in implementing internal control over
financial reporting. Last year we reported one material weakness surrounding “Inventory and
Related Property.” This year, because of the implementation of comprehensive corrective actions
and the enforcement of internal controls by management, the United States Mint downgraded
the classification of Inventory and Related Property to a significant deficiency based on FY 2009
testing. The United States Mint is committed to continue to monitor and improve its internal
controls throughout the entire organization.




                                          47
Limitations of the Financial Statements

       The principal financial statements have been prepared to report the financial position and results
       of operations of the United States Mint, pursuant to the requirements of 31 U.S.C. § 3515(b).
       The statements have been prepared from the books and records of the United States Mint
       in accordance with generally accepted accounting principles for Federal entities and the formats
       prescribe by the OMB. The statements are in addition to the financial reports used to monitor
       and control budgetary resources which are prepared from the same books and records.
       The statements should be read with the realization that they are for a component of the United
       States Government.




                                                48
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                          Independent Auditors’ Report


Inspector General
United States Department of the Treasury

Director
United States Mint:

We have audited the accompanying balance sheets of the United States Mint as of September 30, 2009 and
2008, and the related statements of net cost, changes in net position, and combined statements of budgetary
resources (hereinafter referred to as “financial statements”) for the years then ended. These financial
statements are the responsibility of the United States Mint’s management. Our responsibility is to express
an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the United States
Mint’s internal control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall financial statement presentation. We believe that our audits provide a
reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the United States Mint as of September 30, 2009 and 2008, and its net costs, changes
in net position, and budgetary resources for the years then ended in conformity with U.S. generally
accepted accounting principles.

The information in the Management’s Discussion and Analysis, and Required Supplementary Information,
is not a required part of the financial statements, but is supplementary information required by U.S.
generally accepted accounting principles. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on it.




                                                                         49
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our reports dated November 24,
2009, on our consideration of the United States Mint’s internal control over financial reporting and our
tests of its compliance with certain provisions of laws, regulations, and contracts and other matters. The
purpose of those reports is to describe the scope of our testing of internal control over financial reporting
and compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.




November 24, 2009




                                                     50
Department of the Treasury United States Mint
BALANCE SHEETS
(dollars in thousands)
                                                                                As of September 30,
                                                                         2009                         2008


Assets
Intragovernmental:
  Fund Balance with Treasury (Note 3)				                           $        429,476		          $     303,386
  Accounts Receivable, Net (Note 4)				                                          406		                    399
  Advances and Prepayments (Note 5)				                                        2,877		                  4,292
Total Intragovernmental Assets				                                           432,759		                308,077

 Custodial Gold and Silver Reserves (Notes 2 and 6)		                 10,493,740		                10,493,740
 Accounts Receivable, Net (Note 4)				                                     6,890		                    23,411
 Inventory (Notes 7 and 20)					                                         354,900		                   470,957
 Supplies						                                                           16,815		                    16,206
 Property, Plant and Equipment, Net (Note 8)			                          200,148		                   207,634
 Advances and Prepayments (Note 5)				                                         2		                     4,656
Total Non-Intragovernmental Assets				                              $ 11,072,495		              $ 11,216,604
Total Assets (Notes 2 and 14)				                                   $ 11,505,254		              $ 11,524,681

Heritage Assets (Note 9)

Liabilities
Intragovernmental:
  Accounts Payable						                                            $         5,597		           $       6,425
  Accrued Workers’ Compensation and Benefits			                               7,831		                   7,259
Total Intragovernmental Liabilities				                                      13,428		                  13,684

 Custodial Liability to Treasury (Notes 2 and 6)			                   10,493,740		                10,493,740
 Accounts Payable						                                                   41,697		                    42,562
 Surcharges Payable (Note 3)				                                           7,330		                    11,314
 Accrued Payroll and Benefits				                                         17,409		                    16,635
 Other Actuarial Liabilities					                                         25,380		                    29,349
 Unearned Revenue					                                                     1,710		                    11,023
 Deposit Fund Liability					                                                  25		                         –
Total Non-Intragovernmental Liabilities			                          $ 10,587,291		              $ 10,604,623
Total Liabilities (Notes 10 and 14)				                             $ 10,600,719		              $ 10,618,307

Commitments and Contingencies (Notes 12 and 13)

Net Position
Cumulative Results of Operations - Earmarked Funds (Note 14)	      904,535		                          906,374
										
Total Liabilities and Net Position				                        $ 11,505,254		                    $ 11,524,681

The accompanying notes are an integral part of these financial statements.




                                               51
Department of the Treasury United States Mint
STATEMENTS OF NET COST
(dollars in thousands)
                                                                         For the years ended September 30,
                                                                         2009                       2008


Numismatic Production and Sales
 Gross Cost						                                                   $    2,054,905		            $    1,398,624
 Less Earned Revenue					                                               (2,109,436)		               (1,476,433)
Net Program Revenue					                                                    (54,531)		                  (77,809)

Numismatic Production and Sales of Circulating Coins
 Gross Cost						                                                             6,145		                    7,128
 Less Earned Revenue					                                                    (6,145)		                  (7,128)
Net Program Revenue					                                                      –			                       –	

Circulating Production and Sales
 Gross Cost						                                                         349,843		                   588,308
 Less Earned Revenue					                                                (349,843)		                 (588,308)
Net Program Revenue					                                                    –			                        –	

Net Revenue Before Protection of Assets			                                   (54,531)		                (77,809)

Protection of Assets
  Protection Costs						                                                     41,102		                  41,000
Net Cost of Protection Assets				                                            41,102		                  41,000

Net Revenue from Operations (Notes 14 and 15)		                     $        (13,429)		         $      (36,809)

The accompanying notes are an integral part of these financial statements.




                                                         52
Department of the Treasury United States Mint
STATEMENTS OF CHANGES IN NET POSITION
(dollars in thousands)
                                                                         For the years ended September 30,
                                                                         2009                       2008


Cumulative Results of Operations

Net Position, Beginning of Year - Earmarked Funds (Note 14)	        $        906,374		          $     877,506

Financing Sources:
  Transfers to the Treasury General Fund On-Budget (Note 19)	             (35,000)		                  (15,000)
  Transfers to the Treasury General Fund Off-Budget (Note 19)	           (440,000)		                 (735,000)
  Other Financing Sources (Seigniorage) (Note 16)		                       447,068		                   728,638
  Imputed Financing Sources (Note 11)			                                    11,834		                   13,421
  Transfers in Without Reimbursement				                                       830		                        –
Total Financing Sources					                                               (15,268)		                  (7,941)
Net Revenue from Operations				                                             13,429		                   36,809
Net Position, End of Year - Earmarked Funds (Note 14)		             $     904,535		             $     906,374

The accompanying notes are an integral part of these financial statements.




                                                         53
Department of the Treasury United States Mint
STATEMENTS OF BUDGETARY RESOURCES
(dollars in thousands)
                                                                         For the years ended September 30,
                                                                         2009                       2008


Budgetary Resources
Unobligated balance, brought forward October 1		                    $        50,858		           $      53,088
Recoveries of prior-year unpaid obligations			                               54,939		                  26,759
Budget authority
  Spending authority from offsetting collections
    Earned
      Collected						                                                   2,467,058		                 2,066,420
      Change in receivable from federal sources			                              7		                       476
    Change in unfilled customer orders
      Advance received					                                                 (9,313)		                   8,976
      Without advance from federal sources			                                 (369)		                     741
    Subtotal						                                                      2,457,383		                 2,076,613
Permanently not available					                                            (35,000)		                  (15,000)
Total Budgetary Resources					                                      $   2,528,180		             $   2,141,460

Status of Budgetary Resources
Obligations incurred
  Reimbursable (Note 17)					                                       $   2,282,497		             $   2,090,602
Unobligated balances
  Apportioned						                                                       245,683		                    50,858
Total Status of Budgetary Resources				                             $   2,528,180		             $   2,141,460

Change in Obligated Balances
Obligated balance, net
  Unpaid obligations, brought forward, October 1		                  $        259,645		          $     208,543
  Less: Uncollected customer payments from federal sources,
	         brought forward, October 1				                                      (7,117)		                (5,900)
  Total unpaid obligated balance, net				                                    252,528		                202,643

Obligations incurred, net (Note 17)				                                  2,282,497		                 2,090,602
Gross outlays						                                                     (2,296,680)		               (2,012,741)
Recoveries of prior-year unpaid obligations, actual		                       (54,939)		                  (26,759)
Change in uncollected customer payments from federal sources	                   362		                    (1,217)
Obligated balance, net, end of the period
 Unpaid obligations					                                                     190,523		                259,645
 Uncollected customer payments from federal sources		                         (6,755)		                (7,117)
 Total unpaid obligated balance, net, end of period		                        183,768		                252,528

Net Outlays
Net outlays
 Gross outlays						                                                   2,296,680		                 2,012,741
 Collections						                                                    (2,457,745)		               (2,075,396)
Total Outlays						                                                 $   (161,065)		             $     (62,655)

The accompanying notes are an integral part of these financial statements.


                                               54
Notes to the Financial Statements
For the Years Ended September 30, 2009 and 2008
(dollars are in thousands except Fine Troy Ounce information)


            1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
            REPORTING ENTITY Established in 1792, the United States Mint is a bureau of the Department
            of the Treasury (Treasury). The mission of the United States Mint is as follows: The men and
            women of the United States Mint serve the Nation by exclusively and efficiently creating the highest
            quality, most beautiful and inspiring coins and medals that: enable commerce; reflect American
            values; advance artistic excellence; educate the public by commemorating people, places and
            events; and fulfill retail demand for coins. Numismatic products include medals; proof coins;
            uncirculated coins; platinum, gold, and silver bullion coins; and commemorative coins. Custodial
            assets consist of the Treasury-owned gold and silver bullion reserves. These custodial reserves are
            often referred to as “deep storage” and “working stock,” and are reported on the Balance Sheet.
            The production of numismatic products is financed through sales to the public. The production
            of circulating coinage is financed through sales of coins at face value to the Federal Reserve Banks
            (FRB). Additionally, the United States Mint sells certain circulating products directly to the pub-
            lic as numismatic items. Activities related to protection of Treasury-owned custodial assets are
            funded by the United States Mint Public Enterprise Fund (PEF).
            Pursuant to Public Law (P.L.) 104-52, Treasury, Postal Service, and General Government
            Appropriation Act for FY 1996, as codified at 31 U.S.C. § 5136, the PEF was established to
            account for all receipts and expenses related to production and sale of numismatic items and
            circulating coinage, as well as protection activities. Expenses accounted for in the PEF include the
            entire cost of operating the United States Mint, from the purchase of raw materials to the salaries
            of personnel. Any amount in the PEF that is determined to be in excess of the amount required
            by the PEF shall be transferred to the Treasury General Fund.
            Treasury’s Bullion Fund (Bullion Fund) is used to account for Treasury-owned gold and silver
            reserves. A separate Schedule of Custodial Deep Storage Gold and Silver Reserves has been pre-
            pared for the deep storage portion of the Treasury-owned gold and silver reserves for which the
            United States Mint acts as custodian.
            BASIS OF ACCOUNTING AND PRESENTATION The accompanying financial statements
            were prepared based on the reporting format promulgated by the Office of Management and
            Budget (OMB) Circular A-136, Financial Reporting Requirements, and in accordance with
            accounting standards issued by the Federal Accounting Standards Advisory Board (FASAB). The
            United States Mint’s financial statements have been prepared to report the financial position, net
            cost of operations, changes in net position, and budgetary resources, as required by 31 U.S.C. § 5136.
            Management uses estimates and assumptions in preparing financial statements. Those estimates
            and assumptions affect the reported amounts of assets and liabilities, the disclosure of contingent
            assets and liabilities, and the reported revenues and expenses. Actual results could differ from




                                                      55
those estimates. Accounts subject to estimates include, but are not limited to, depreciation, im-
puted costs, payroll and benefits, accrued worker’s compensation, allowance for uncollectible
accounts receivable, and unemployment benefits.
The accompanying financial statements have been prepared on the accrual basis of accounting.
Under the accrual method, revenues and other financing sources are recognized when earned and
expenses are recognized when a liability is incurred, without regard to receipt or payment of cash.
EARNED REVENUES AND OTHER FINANCING SOURCES (SEIGNIORAGE)
Numismatic Sales: Revenue from numismatic sales to the public is recognized when products
are shipped to customers. Prices for numismatic products are based on the product cost plus a
reasonable net margin. Bullion coins are priced based on the market price of the precious metals
plus a premium to cover manufacturing, marketing and distribution costs.
Numismatic Sales of Circulating Coins: Specially packaged products containing circulating coins
are sold directly to the public without first being sold to the FRB. These products are treated as a
circulating and numismatic hybrid product.
Circulating Sales: The PEF provides for the sale of circulating coinage at face value to the FRB.
Revenue from the sale of circulating coins is recognized when the product is shipped to the FRB.
Revenue from the sale of circulating coins to the FRB and numismatic sales of circulating coins to
the public is limited to the recovery of the cost of manufacturing and distributing those coins.
Other Financing Source (Seigniorage): Seigniorage equals the face value of newly minted coins
less the cost of production (which includes the cost of metal, manufacturing, and transportation).
Seigniorage adds to the government’s cash balance, but unlike the payment of taxes or other
receipts, it does not involve a transfer of financial assets from the public. Instead, it arises from
the exercise of the government’s sovereign power to create money and the public’s desire to hold
financial assets in the form of coins. Therefore, the President’s Budget excludes seigniorage from
receipts and treats it as a means of financing. Seigniorage is recognized when coins are shipped to
the FRB in return for deposits to the PEF.
Rental Revenue: The United States Mint sublets office space at cost to other Federal entities in
the two leased buildings in Washington, DC. In FY 2009, a lease was signed with a commercial
vendor for a portion of the first floor space of the building at 801 9th Street, NW.
FUND BALANCE WITH TREASURY All cash is maintained at the Treasury. Fund Balance with
Treasury is the aggregate amount of the United States Mint’s cash accounts with the U.S. Govern-
ment’s central accounts and from which the United States Mint is authorized to make expenditures.
It is an asset because it represents the United States Mint’s claim to U.S. Government resources.
ACCOUNTS RECEIVABLE Accounts receivable are amounts due to the United States Mint
from the public and other Federal entities. An allowance for uncollectible accounts receivable is
established for all accounts that are more than 180 days past due. However, the United States
Mint will continue collection action on those accounts that are more than 180 days past due, as
specified by the Debt Collection Improvement Act of 1996.




                                          56
INVENTORIES Inventories of circulating and numismatic coinage that do not contain either
gold or silver are valued at the lower of cost or market. Costs of the metal and fabrication
components of the inventories are determined using a weighted average inventory methodology.
Conversion costs (i.e., the cost to convert the fabricated blank into a finished coin) are valued us-
ing a standard cost methodology. The United States Mint uses three classifications for inventory:
Raw material (either raw metal or unprocessed coil and blanks); work in process (WIP – material
being transformed to finished coins), and finished goods (coins that are packaged or bagged and
ready for sale or shipment to the public or the FRB).
TREASURY-OWNED CUSTODIAL GOLD AND SILVER BULLION RESERVES Treasury-
owned gold and silver reserves consist of both “deep storage” and “working stock” gold and silver.
Deep Storage is defined as that portion of the Treasury-owned Gold and Silver Bullion Reserve
which the United States Mint secures in sealed vaults. Deep storage gold comprises the vast
majority of the Bullion Reserve and consists primarily of gold bars. Deep storage silver is also
primarily in bar form.
Working Stock is defined as that portion of the Treasury-owned Gold and Silver Bullion Reserve
which the United States Mint can use as the raw material for minting coins. Working stock gold
comprises only about one percent of the Gold Bullion Reserve and consists of bars, blanks, unsold
coins, and condemned coins. Similarly, working stock silver consists of bars, blanks, unsold coins,
or condemned coins.
Treasury allows the United States Mint to use some of its gold and silver as working stock. Generally,
the United States Mint does not deplete the working stock when used in production. Instead, the
United States Mint will purchase a like amount of gold and silver on the open market to replace
the working stock used. In those rare cases in which the gold or silver is depleted, the United
States Mint reimburses Treasury the current market value of the depleted gold or silver.
SUPPLIES Supplies are items that are not considered inventory and are not a part of the finished
product. These items include plant engineering and maintenance supplies, as well as die steel and
coin dies. Supplies are accounted for using the consumption method, in which supplies are recognized
as assets upon acquisition and expensed as they are consumed.
ADVANCES AND PREPAYMENTS Payments in advance of the receipt of goods and services are
recorded as advances and prepaid expenses at the time of prepayment, and are expensed when
related goods and services are received.
PROPERTY, PLANT AND EQUIPMENT Property, plant and equipment are valued at cost less
accumulated depreciation. The United States Mint’s threshold for capitalizing new property, plant
and equipment is $25,000 for single purchases and $500,000 for bulk purchases. Depreciation
is computed on a straight-line basis over the estimated useful lives of the related assets as follows:
	       Computer Equipment					                                       3 to 5 years
	       Software							                                               2 to 10 years
	       Machinery and Equipment					                                  7 to 20 years
	       Structures, Facilities and Leasehold Improvements		           10 to 30 years




                                          57
Major alterations and renovations are capitalized over the shorter of a 20-year period or the
remaining useful life of the asset and depreciated using the straight-line method, while mainte-
nance and repair costs are charged to expense as incurred. There are no restrictions on the use or
convertibility of general property, plant and equipment.
HERITAGE ASSETS Heritage assets are items that are unique because of their historical, cultural,
educational, or artistic importance. These items are collection type assets that are maintained for
exhibition and are preserved indefinitely.
Liabilities Liabilities represent actual and estimated amounts likely to be paid as a result of
transactions or events that have already occurred. All liabilities covered by budgetary resources
can be paid from revenues received by the PEF.
SURCHARGES Legislation authorizing commemorative coin programs often requires that the sales
price of each coin includes an amount, called a surcharge, that is authorized to provide funds to a
qualifying organization or group of organizations for the purposes specified. A surcharges payable
account is established for surcharges collected but not yet paid to designated recipient organizations.
Recipient organizations cannot receive surcharge payments unless all of the United States Mint’s
operating costs for the coin program are fully recovered. The United States Mint may make interim
surcharge payments during a commemorative program if the recipient organization meets the
eligibility criteria in the Act, if the recovery of all costs of the program is determinable, and if the
United States Mint is assured it is not at risk of a loss. Additionally, recipient organizations must
demonstrate that they have raised from private sources an amount equal to or greater than the
surcharges collected based on sales. A recipient organization has two years from the end of the
program to meet this requirement.
EARMARKED FUNDS Pursuant to P.L. 104-52, the PEF was established as the sole funding
source for United States Mint activities. The PEF meets the requirements of an earmarked fund
as defined in Statement of Federal Financial Accounting Standard (SFFAS) 27, Identifying and
Reporting Earmarked Funds. As non-entity and non-PEF assets, the Treasury-owned gold and
silver bullion reserves are not considered to be earmarked funds.
UNEARNED REVENUES These are amounts received for numismatic orders which have not yet
been shipped to the customer.
RETURN POLICY If for any reason a numismatic customer is dissatisfied, the entire product must
be returned within seven days of receiving the order to receive a refund or replacement. Shipping
charges are not refunded. Further, the United States Mint will not accept partial returns or issue
partial refunds. Historically, the United States Mint receives few returns, which are immaterial.
Therefore, no reserve for returns is considered necessary.
SHIPPING AND HANDLING The United States Mint reports shipping and handling costs of
circulating coins and numismatic products as a cost of goods sold. General postage costs for
handling administrative mailings are reported as part of the United States Mint’s general and
administrative expenses.
ANNUAL, SICK AND OTHER LEAVE Annual leave is accrued when earned and reduced as
leave is taken. The balance in the accrued leave account is calculated using current pay rates. Sick
leave and other types of non-vested leave are charged to operating costs as they are used.




                                           58
ACCRUED WORKERS’ COMPENSATION AND OTHER ACTUARIAL LIABILITIES The
Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to
cover Federal civilian employees injured on the job, employees who have incurred a work-related
injury or occupational disease, and to pay beneficiaries of employees whose deaths are attributable
to job-related injuries or occupational disease. The FECA program is administered by the United
States Department of Labor (DOL), which pays valid claims and subsequently seeks reimburse-
ment from the United States Mint for these paid claims.
The FECA liability is based on two components. The first component is based on actual claims paid
by DOL but not yet reimbursed by the United States Mint. There is generally a two-to-three-year
time period between payment by DOL and DOL requesting payment from the United States Mint.
The second component is the actuarial liability, which estimates the liability for future payments
as a result of past events. The actuarial liability includes the expected liability for death, disability,
medical, and miscellaneous costs for approved compensation cases.
PROTECTION COSTS Treasury-owned gold and silver reserves are in the custody of the United
States Mint, which is responsible for safeguarding the reserves. These costs are borne by the Unit-
ed States Mint, but are not directly related to the circulating or numismatic coining operations
of the United States Mint. The Protection Department, which is responsible for safeguarding the
reserves, is a separate function from coining operations.
OTHER COST AND EXPENSES (MUTILATED AND UNCURRENT) Other costs and expenses
consist primarily of returns of mutilated or uncurrent coins to the United States Mint. Coins that
are chipped, fused, and/or not machine-countable are considered mutilated. The United States
Mint reimburses the entity that sent in the mutilated coins using weight formulas that estimate
the face value of these coins. Uncurrent coins are worn, but machine-countable, and their genu-
ineness and denominations are still recognizable. Uncurrent coins are replaced with new coins of
the same denomination by the FRB. The FRB then seeks replacement coins from the United States
Mint. All mutilated or uncurrent coins received by the United States Mint are sold to its fabrication
contractors to be processed into coils or blanks to be used in future coin production.
TAX EXEMPT STATUS As an agency of the Federal Government, the United States Mint is
exempt from all taxes imposed by any governing body, whether it is a Federal, state, common-
wealth, local, or foreign government.
CONCENTRATIONS The United States Mint purchases the coil and blanks used in the produc-
tion of circulating coins from three vendors at competitive market prices. The United States Mint
also purchases precious metal blanks from three different suppliers.
Contingent Liabilities Certain conditions exist as of the date of the financial statements,
which may result in a loss to the government, but which will only be resolved when one or more
future events occur or fail to occur. The Mint recognizes a loss contingency when the future
outflow or other sacrifice of resources is probable and reasonably estimable. Loss contingencies
that are determined by management to have a reasonably possible chance of occurring or that
cannot be estimated are included as a footnote to the financial statements. Contingent liabilities
considered remote are generally not disclosed unless they involve guarantees, in which case the
nature of the guarantee is disclosed.
TRANSFERS TO THE TREASURY GENERAL FUND The United States Mint transfers to the
Treasury General Fund amounts determined to be in excess of the amounts required for United
States Mint’s PEF operations and programs. These amounts are generated from the seigniorage

                                            59
derived from the sale of circulating coins and from net revenues generated from the sale of
numismatic products.
Seigniorage is an off-budget receipt to the Treasury General Fund. Off-budget means that these
funds cannot be used to reduce the annual budget deficit. Instead, they are used as a financing
source (i.e., they reduce the amount of cash that Treasury has to borrow to pay interest on the
national debt).
Net revenues generated from the sale of numismatic products are transferred to the Treasury
General Fund as an on-budget receipt. Unlike seigniorage, the numismatic transfer amount is
available to the Federal government as current operating revenue or it can be used to reduce the
annual budget deficit.
BUDGETARY RESOURCES The United States Mint does not receive an appropriation from the
Congress. Instead, the United States Mint receives all financing from the public, including the
FRB, and receives an apportionment of those funds from OMB. This apportionment is considered
a budgetary authority, which allows the United States Mint to spend the funds. The United States
Mint’s budgetary resources consist of unobligated balances, transfers, and spending authority from
offsetting collections, which is net of amounts that are permanently not available. “Permanently
not available” funds are on-budget transfers to the General Fund.
Hedging The United States Mint engages in a hedging program to avoid fluctuation in silver
costs as a result of the changes in market prices. The United States Mint purchases silver in large
quantities and sells an interest in that silver to a trading partner, while maintaining physical custody
and title to the silver. Sales of silver to the trading partner are made at the same spot price that the
United States Mint paid to obtain the silver on the open market. The partner’s interest in United
States Mint silver is reduced as finished silver bullion coins are sold to authorized purchasers
(APs). Repurchases of the trading partner’s interest in the silver occurs upon sale of coins by the
United States Mint. Repurchases are made on the same day as sales, in the same quantity sold,
and using the same spot price as was used for the sale to the AP. Each sale to and from the trading
partner carries a small transaction fee, the selling and buying fees net to a cost of one half cent per
ounce. The United States Mint incurred $121 thousand in hedging fees in FY 2009, compared to
$90 thousand incurred in FY 2008. Additionally, the United States Mint incurred interest costs of
$509 thousand in FY 2009. Interest costs were not incurred previously because the market was
functioning “normally.” In FY 2009, the market was in what is referred to as “backwardation,”
which means that the difference between the future contract price of silver and the current spot
price is less than the carrying cost of the silver.
Reclassifications Certain amounts included in the reconciliation of net costs of operations
to budget as of September 30, 2008 have been reclassified to conform to the September 30, 2009
presentation.
2. NON-ENTITY ASSETS
Components of Non-entity Assets at September 30 are as follows:
						                                                  2009			                    2008
Custodial Gold Reserves (Deep Storage)		              $ 10,355,539		             $ 10,355,539
Custodial Silver Reserves (Deep Storage)		                   9,148		                    9,148
Custodial Gold Reserves (Working Stock)		                  117,514		                  117,514
Custodial Silver Reserves (Working Stock)		                 11,539		                   11,539
Total Non-entity Assets				                             10,493,740		               10,493,740
Total Entity Assets					                                 1,011,514		                1,030,941
Total Assets					                                     $ 11,505,254		             $ 11,524,681
                                           60
Entity assets are assets that the reporting entity has authority to use in its operations. Unit-
ed States Mint management has legal authority to use entity assets to meet entity obligations.
Treasury-owned gold and silver bullion reserves, for which the United States Mint is custodian,
are non-entity assets.
3. FUND BALANCE WITH TREASURY
Fund Balance with Treasury at September 30 consists of the following:
						                                               2009			                   2008
Revolving Fund					                                $ 429,451		               $ 303,386
Other						                                               25		                       –
Total Fund Balance with Treasury			                $ 429,476		               $ 303,386

Status of Fund Balance with Treasury
Unobligated Balance				                            $ 245,683		               $ 50,858
Obligated Balance, Not Yet Disbursed			              183,768		                 252,528
Non-Budgetary FBWT				                                    25		                       –
Total						                                        $ 429,476		               $ 303,386

The United States Mint does not receive appropriated budget authority. The Fund Balance with
Treasury is entirely available for use to support United States Mint operations. At September 30,
2009 and 2008, the revolving fund balance included $7.3 million and $11.3 million, respectively,
in restricted amounts for possible payment of surcharges to recipient organizations.
4. ACCOUNTS RECEIVABLE, NET
Components of accounts receivable are as follows:
						                                                  September 30, 2009
				                        Gross Receivables		             Allowance	       Net Receivables
Intragovernmental			        $ 6,352			                      $ (5,946)		      $    406
With the Public			             8,427			                       (1,537)		        6,890
Total Accounts Receivable		 $ 14,779			                     $ (7,483)		      $ 7,296

						                                                  September 30, 2008
				                        Gross Receivables		             Allowance	       Net Receivables
Intragovernmental			        $ 6,345			                      $ (5,946)		      $    399
With the Public			            24,254			                         (843)		        23,411
Total Accounts Receivable		 $ 30,599			                     $ (6,789)		      $ 23,810

At September 30, 2009, there were approximately $6.4 million in intragovernmental accounts
receivable, compared to $6.3 million at September 30, 2008. This largely represents amounts due
to the United States Mint for a joint numismatic product with another Federal entity. Management
determined that the collection of $5.9 million related to the program was in doubt and has included
that amount in the Allowance for Doubtful Accounts. Receivables with the public at September
30, 2009, are $8.4 million, of which $1.6 million is owed by fabricators for scrap and webbing,
in addition to amounts owed by the public for numismatic products. This compares to receivables
with the public at September 30, 2008, of $24.3 million, which consists primarily of amounts
owed by metal fabricators for scrap and webbing. The remainder of the accounts receivable
represents outstanding balances on numismatic orders. The allowance for doubtful accounts is the
balance of the accounts receivable with the public that is past due by 180 days or more. Collection
action continues on these accounts, but an allowance is recorded.




                                         61
5. ADVANCES AND PREPAYMENTS
The components of advances and prepayments at September 30 are as follows:
						                                                2009			                   2008
Intragovernmental					                              $ 2,877			                $ 4,292
With the Public					                                      2			                  4,656
Total Advances and Prepayments			                   $ 2,879			                $ 8,948

Intragovernmental advances and prepayments at September 30, 2009 and 2008, include $2.1 million
and $2.5 million, respectively, that the United States Mint paid the Treasury Working Capital
Fund for a variety of centralized services. The remaining balance of approximately $700 thousand
represents payments made to the United States Postal Service for product delivery services at
September 30, 2009, compared to approximately $1.8 million paid at September 30, 2008.
Advances and Prepayments with the public for FY 2008 consist primarily of advances for freight
forwarding. The United States Mint had no advances for freight forwarding outstanding at the
end of FY 2009.
6. CUSTODIAL GOLD AND SILVER BULLION RESERVES
As custodian, the United States Mint is responsible for safeguarding much of the Treasury-owned
gold and silver bullion reserves, which include deep storage and working stock. The asset and the
custodial liability to Treasury are reported on the Balance Sheet at statutory rates. In accordance
with 31 U.S.C. § 5117(b) and 31 U.S.C. § 5116(b)(2), statutory rates of $42.2222 per fine troy
ounce (FTO) of gold and no less than $1.292929292 per FTO of silver are used to value the
entire custodial reserves held by the United States Mint. Accordingly, the United States Mint values
the silver at $1.292929292 per FTO.
The market value for gold and silver at September 30 is determined by the London Gold Fixing
(PM) rate. Amounts and values of custodial gold and silver in custody of the United States Mint
at September 30 are as follows:
						                                                  2009			                   2008
Gold - Deep Storage:
  Inventories (FTO)				                               245,262,897		             245,262,897
  Market Value ($ per FTO)				                      $      995.75		           $      884.50
  Market Value ($ in thousands)			                  $ 244,220,530		           $ 216,935,032
  Statutory Value ($ in thousands)			               $ 10,355,539		            $ 10,355,539
Gold - Working Stock:
  Inventories (FTO)				                                 2,783,219		                 2,783,219
  Market Value ($ per FTO)				                      $      995.75		           $        884.50
  Market Value ($ in thousands)			                  $   2,771,390		           $     2,461,757
  Statutory Value ($ in thousands)			               $     117,514		           $       117,514
Silver - Deep Storage:
  Inventories (FTO)				                                 7,075,171		                 7,075,171
  Market Value ($ per FTO)				                      $       16.45		           $         12.96
  Market Value ($ in thousands)			                  $     116,387		           $        91,694
  Statutory Value ($ in thousands)			               $       9,148		           $         9,148
Silver - Working Stock:
  Inventories (FTO)				                                 8,924,829		                 8,924,829
  Market Value ($ per FTO)				                      $       16.45		           $         12.96
Market Value ($ in thousands)			                    $     146,813		           $       115,666
Statutory Value ($ in thousands)			                 $      11,539		           $        11,539
Total Market Value of Custodial Gold
	         and Silver Reserves ($ in thousands)		    $ 247,255,119		           $ 219,604,149
Total Statutory Value of Custodial Gold
	         and Silver Reserves ($ in thousands)		    $ 10,493,740		            $ 10,493,740


                                             62
7. INVENTORY AND RELATED PROPERTY
The components of inventories and related property at September 30 are summarized below:
						                                                  2009			                    2008
Raw Materials					                                    $ 191,320		                $ 313,186
Work-In-Process					                                     68,364		                   49,481
Inventory held for current sale			                       95,216		                  108,290
Total Inventory and Related Property			               $ 354,900		                $ 470,957

Raw materials consist of unprocessed materials and by-products of the manufacturing process
and the metal value of unusable inventory such as scrap or condemned coins that will be recycled
into a usable raw material. In addition, as of September 30, 2009 and 2008, the raw material
inventory includes $88.0 million and $32.0 million, respectively, in fair value silver hedge activity
of which additional information can be found in note 20. Work-in-process consists of semi-fin-
ished materials.
8. PROPERTY, PLANT AND EQUIPMENT, NET
Components of property, plant and equipment are as follows:
						                                                   September 30, 2009			
				                       Asset Cost	                Accumulated Depreciation	 Total Property, Plant
						                                                and Amortization		        and Equipment, Net
Land				                   $ 2,529	                   $        –		              $     2,529
Structures, Facilities and
  Leasehold Improvements		   203,374	                   (132,661)		                  70,713
Computer Equipment		          29,352	                    (27,703)		                   1,649
ADP Software			               57,099	                    (55,305)		                   1,794
Construction-In-Progress		    17,125	                          –		                   17,125
Machinery and Equipment		    265,843	                   (159,505)		                 106,338
Total Property, Plant
  and Equipment, Net		     $ 575,322	                 $ ($375,174)		             $ 200,148

						                                                   September 30, 2008			
				                       Asset Cost	                Accumulated Depreciation	 Total Property, Plant
						                                                and Amortization		        and Equipment, Net
Land				                   $ 2,529 		                 $        –		              $     2,529
Structures, Facilities and
  Leasehold Improvements		  192,499		                   (122,640)		                  69,859
Computer Equipment		         30,990		                    (28,082)		                   2,908
Software				                 57,255		                    (54,735)		                   2,520
Construction-In-Progress		   26,296		                          –		                   26,296
Machinery and Equipment		   244,207		                   (140,685)		                 103,522
Total Property, Plant and
  Equipment, Net			        $ 553,776	                 $ (346,142)		               $ 207,634

The land and buildings used to manufacture circulating coinage and numismatic products are
owned by the United States Mint and located in Philadelphia, Pennsylvania; Denver, Colorado;
San Francisco, California and West Point, New York. In addition, the United States Mint
owns the land and buildings at the United States Bullion Depository at Fort Knox, Kentucky.
Construction-in-process (CIP) represents assets that are underway, such as in the process of being
readied for use, or which are being tested for acceptability, but which are not yet being fully utilized
by the United States Mint.
Depreciation and amortization expenses charged to operations during the years ended September
30, 2009 and 2008, were $34.2 million and $34.3 million, respectively.

                                           63
9. HERITAGE ASSETS
The United States Mint maintains collections of heritage assets which are any property, plant, or
equipment that is retained by the United States Mint for its historic, natural, cultural, educational,
or artistic value or significant architectural characteristics. For example, the United States Mint’s
heritage assets contain, among other things, examples of furniture and equipment used in the
United States Mint facilities over the years, as well as examples of the coin manufacturing process,
such as plasters, galvanos, dies, punches, and actual finished coins. The coin collections include
examples of the various coins produced by the United States Mint over the years, separated into
collections of pattern pieces/prototypes, coin specimens, quality samples, and exotic metal coin
samples. The building housing the United States Mint in Denver, Colorado, is considered a multi-use
heritage asset. The United States Mint generally does not place a value on heritage assets, even
though some of the coins and artifacts are priceless. However, the assets are accounted for and
controlled for protection and conservation purposes. Heritage assets held by the United States
Mint are generally in acceptable physical condition. The following chart represents the new ter-
minology the United States Mint applied to the various collections. The quantity of heritage assets
remained the same. The assets were simply reclassified.
Coin Collections					                                     Quantity of Collections Held September 30,
						                                                   2009			                     2008
Pattern Pieces/Prototypes				                              1			                    (new category 2009)
Coin Specimens					                                        1			                        3
Quality Samples					                                       1			                    (new category 2009)
Exotic Metal Coin Samples				                              1			                    (new category 2009)
Total						                                                4			                        3

Historical Artifacts					                                 Quantity of Collections Held September 30,
						                                                   2009			                     2008
Antiques/Artifacts					                                    1			                        3
Plasters						                                             1			                    (new category 2009)
Galvanos						                                             1			                    (new category 2009)
Dies						                                                 1			                    (new category 2009)
Punches						                                              1			                    (new category 2009)
Historical Documents				                                   1			                    (new category 2009)
Multi-use heritage asset
  (United States Mint at Denver, CO)			                   1			                    (new category 2009)
Total						                                               7			                       3

10. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES
Components of Liabilities Not Covered by Budgetary Resources at September 30 are as follows:
						                                                    2009			                   2008
Custodial Gold Reserves (Deep Storage)		                $ 10,355,539		            $ 10,355,539
Custodial Silver Reserves (Deep Storage)		                     9,148		                   9,148
Working Stock Inventory - Gold			                            117,514		                 117,514
Working Stock Inventory - Silver			                           11,539		                  11,539
Other						                                                       25		                       –
Total Liabilities Not Covered by Budgetary Resources	   $ 10,493,765		            $ 10,493,740
Total Liabilities Covered by Budgetary Resources		           106,954		                 124,567
Total Liabilities					                                  $ 10,600,719		            $ 10,618,307

Liabilities not covered by budgetary resources represent the United States Mint’s custodial liabilities
to the Treasury that are entirely offset by Treasury-owned gold and silver bullion reserves held by
the United States Mint on behalf of the Federal Government. The new category “Other” represents
the refundable security deposit received from the commercial tenant in the headquarters building.

                                              64
11. RETIREMENT PLANS, OTHER POST-EMPLOYMENT COSTS AND OTHER
IMPUTED COSTS
The United States Mint contributes seven percent of basic pay for employees participating in the
Civil Service Retirement System (CSRS). Most employees hired after December 31, 1983, are
automatically covered by the Federal Employees’ Retirement System (FERS) and Social Security.
A primary feature of FERS is that it offers a savings plan to which the United States Mint au-
tomatically contributes one percent of basic pay and matches employee contributions up to an
additional four percent of basic pay. Employees can contribute a specific dollar amount or a per-
centage of their basic pay as long as the annual dollar total does not exceed the Internal Revenue
Code limit of $16,500 for calendar year 2009. Employees participating in FERS are covered by
the Federal Insurance Contribution Act (FICA) for which the United States Mint contributes a
matching amount to the Social Security Administration.
Although the United States Mint contributes a portion for pension benefits and makes the neces-
sary payroll deductions, it is not responsible for administering either CSRS or FERS. Adminis-
tering and reporting on pension benefit programs is the responsibility of the Office of Personnel
Management (OPM). OPM has provided the United States Mint with certain cost factors that
estimate the cost of providing the pension benefit to current employees. The cost factors of 25.8
percent of basic pay for CSRS-covered employees and 12.3 percent of basic pay for FERS-covered
employees were in use for FY 2009. The CSRS factor increased .6 percent over FY 2008, and the
FERS factor increased .3 percent over FY 2008.
The amounts that the United States Mint contributed to the retirement plans and social security
for the year ended September 30 are as follows:
						                                                   2009			              2008
Social Security System				                             $ 6,866			            $ 7,047
Civil Service Retirement System			                        1,864			             1,674
Federal Employees Retirement System
  (Retirement and Thrift Savings Plan)			                11,593			             11,502
Total Retirement Plans and Other Post-employment Cost	 $ 20,323			           $ 20,223

The United States Mint also recognizes its share of the future cost of pension payments and
post-retirement health and life insurance benefits for employees while they are still working with
an offset classified as imputed financing. OPM continues to report the overall liability of the
Federal Government and make direct recipient payments. OPM has provided certain cost factors
that estimate the true cost of providing the post-retirement benefit to current employees. The cost
factors relating to health benefits are $5,756 and $5,220 per employee enrolled in the Federal
Employees Health Benefits Program in FY 2009 and FY 2008, respectively. The cost factor relat-
ing to life insurance is two-one hundredths percent (.02%) of basic pay for employees enrolled in
the Federal Employees Group Life Insurance Program for both FY 2009 and FY 2008.
The amount of imputed cost related to retirement plans and other post-employment costs in-
curred by the United States Mint for the year ended September 30 is as follows (before the offset
for imputing financing):
						                                                 2009			                 2008
Health Benefits					                                 $ 8,738			              $ 7,953
Life Insurance					                                        24			                   23
Pension Expense					                                    3,072			                2,655
Total Imputed Retirement and Postemployment Costs	   $ 11,834			             $ 10,631



                                           65
In addition to the pension and retirement benefits described above, the United States Mint records
imputed costs and financing for Treasury Judgment Fund payments made on behalf of the agency.
For FY 2009, there were no payments by the Judgment Fund on behalf of the United States
Mint which were classified as imputed costs. For FY 2008, entries for Judgment Fund payments
totaled $2.8 million (Other Funds).
12. LEASE COMMITMENTS
THE UNITED STATES MINT AS LESSEE: The United States Mint leases office and warehouse
space from commercial vendors, the General Services Administration (GSA), and the Bureau of
Engraving and Printing. In addition, the agency leases copier and other office equipment from com-
mercial vendors and vehicles from GSA. With the exception of the commercial leases on two office
buildings in Washington, DC, all leases are one-year, or one-year with renewable option years.
The two building leases in Washington, DC have terms of 20 and 10 years. Because all of the
United States Mint’s leases are considered cancelable, there are no minimum lease payments due.
THE UNITED STATES MINT AS LESSOR: The United States Mint sublets office space at cost
to several other Federal entities in the two leased buildings in Washington, DC. These sub-leases
vary from one year with option years to multiple year terms. As of September 30, 2009, the
United States Mint sublet in excess of 209,000 square feet in the two leased buildings. As of
September 30, 2009, tenants include the Internal Revenue Service, the Treasury Executive Insti-
tute, the Bureau of the Public Debt, U.S. Customs and Border Protection, and the U.S. Marshals
Service. All of the subleases are operating leases and subject to annual availability of funding.
The United States Mint has also entered into an agreement to sublet space on the first floor of the
headquarters building to a commercial tenant. The commercial lease offers substantial discounts
in the first two years of the lease term. Years three through nine are at the full rental amount.
Future Projected Receipts			                Building Sub-lease
Year 1					                                 $    37,800
Year 2					                                     302,400
Year 3					                                     378,000
Year 4					                                     378,000
Year 5					                                     378,000
Years 6-10				                                1,512,000
Total Future Operating Lease Receipts		     $ 2,986,200

13. CONTINGENCIES
The United States Mint is subject to legal proceedings and claims which arise in the ordinary
course of its business. Judgments, if any, resulting from pending litigation against the United States
Mint generally would be satisfied from the PEF. Likewise, under the Notification and Federal
Employee Antidiscrimination and Retaliation Act of 2002 (No FEAR Act, P. L. 107-174), settle-
ments and judgments related to acts of discrimination and retaliation for whistleblowing will be
paid from the PEF. In the opinion of management, the ultimate resolution of these actions will
not materially affect the United States Mint’s financial position or the results of its operations.
Asserted and pending legal claims for which loss is reasonably possible were estimated to range
from zero to $0.6 million as of September 30, 2009. In FY 2009, a pending legal claim for $7
million was settled for $1.5 million. The $1.5 million was included as an accounts payable as of
September 30, 2009. In management’s opinion, the ultimate resolution of these claims will not
materially affect the United States Mint’s financial position or net cost.




                                          66
14. EARMARKED FUNDS
Pursuant to 31 U.S.C. § 5136, “all receipts from United States Mint operations and programs,
including the production and sale of numismatic items, the production and sale of circulating coinage
at face value to the FRB, the protection of government assets, and gifts and bequests of property,
real or personal shall be deposited into the PEF and shall be available to fund its operations
without fiscal year limitations.” The PEF meets the requirements of an earmarked fund as defined
in SFFAS 27, Identifying and Reporting Earmarked Funds. As non-entity and non-PEF assets,
the Treasury-owned gold and silver bullion reserves are not included in the earmarked funds.
15. INTRAGOVERNMENTAL COSTS AND EARNED REVENUE
Intragovernmental costs and earned revenue reflect transactions in which both the buyer and
seller are Federal entities. Revenue with the public reflects transactions for goods or services with
a non-Federal entity. The purpose for this classification is to enable the Federal Government to
prepare consolidated financial statements. The following table provides earned revenues, gross
cost, and net program revenue.
						                                                     2009			                 2008
Numismatic Production and Sales
Cost:
 Intragovernmental:
   Selling, General and Administrative		               $     18,599		          $      16,170
   Imputed Costs					                                         2,367		                  4,916
 Total Intragovernmental Costs			                            20,966		                 21,086
 Public:
   Cost of Goods Sold				                                  1,974,075		             1,301,887
   Selling, General and Administrative		                      59,864		                75,651
 Total Public Cost					                                    2,033,939		             1,377,538
Gross Cost					                                            2,054,905		             1,398,624
Revenue:
 Intragovernmental:
   Rent Revenues					                                      10,068		                   9,071
   Other Intragovernmental Revenues			                        146		                     734
 Total Intragovernmental Revenues			                       10,214		                   9,805
 Public						                                           2,099,222		              1,466,628
Total Earned Revenue				                                2,109,436		              1,476,433
Net Program Revenue				                                $ (54,531)		            $    (77,809)

						
Numismatic Production and Sales of Circulating Coins
Cost:
 Intragovernmental:
   Selling, General and Administrative		               $       684		           $          578
 Total Intragovernmental Costs			                              684		                      578
 Public:
   Cost of Goods Sold				                                    3,258		                   3,847
   Selling, General and Administrative		                     2,203		                   2,703
 Total Public Cost					                                      5,461		                   6,550
Gross Cost					                                              6,145		                   7,128
Revenue:
 Public						                                                6,145		                   7,128
Total Earned Revenue				                                     6,145		                   7,128
Net Program Revenue				                                $         –		           $           –




                                            67
						                                                    2009			                2008
Circulating Production and Sales
Cost:
 Intragovernmental:
    Selling, General and Administrative		               $    15,043		        $      13,510
    Imputed Costs					                                        9,466		                8,505
 Total Intragovernmental Costs			                            24,509		               22,015
 Public:
    Cost of Goods Sold				                                  225,556		             472,080
    Selling, General and Administrative		                    83,078		              83,450
    Other Costs and Expenses (Mutilated and Uncurrent)	      16,700		              10,763
 Total Public Cost					                                     325,334		             566,293
Gross Cost					                                             349,843		             588,308
Revenue:
 Public						                                               349,843		             588,308
Total Earned Revenue				                                    349,843		             588,308
Net Program Revenue				                                 $         –		        $          –

Net Revenue Before Protection of Assets		          $    (54,531)		           $     (77,809)

Protection of Assets
  Public:
    Protection Cost					                           $    41,102		             $      41,000
  Net Cost of Protection of Assets			              $    41,102		             $      41,000

 Net Revenue from Operations			                    $    (13,429)		           $     (36,809)

16. EARNED REVENUE AND OTHER FINANCING SOURCE (SEIGNIORAGE)
The Statement of Net Cost reflects the earned revenue and corresponding gross costs for Circulating
Production and Sales and for Numismatic Production and Sales of Circulating Coins. Circulating
Production and Sales represents coin sales to the FRB and Numismatic Production and Sales of
Circulating Coins represents sales of circulating coins to the public (i.e., numismatic customers).
SFFAS Number 7, Accounting for Revenue and Other Financing Sources and Concepts for Rec-
onciling Budgetary and Financial Accounting, limits the amount of net program revenue from
production of circulating coins to the cost of metal, manufacturing, and transportation. OMB
Circular A-136 defines the treatment of other financing sources on the Statement of Changes
in Net Position, particularly as it relates to the US Standard General Ledger treatment of the
account utilized for seigniorage. Therefore, on the Statement of Net Cost, earned revenue is rec-
ognized only to the extent of the gross cost of production. The difference between those costs and
the face value of the coin is an “Other Financing Source” referred to as seigniorage. Any revenue
over face value for circulating coins sold as numismatic items is considered earned revenue and
included in the category Numismatic Production and Sales on the Statement of Net Cost.
The following chart reflects the two components of the receipts from the sale of circulating
coin – the earned revenue from the Statement of Net Costs and Seigniorage from the Statement
of Changes in Net position as of September 30:
						                                              2009			                    2008
Revenue-FRB					                                   $  349,843		              $   588,308
Seigniorage-FRB					                                  427,768		                  706,212
Total Circulating Coins				                        $ 777,611		               $ 1,294,520

Revenue-with the public				                        $     6,145		             $       7,128
Seigniorage-with the public				                         19,300		                    22,426
Total Numismatic Sales of Circulating Coins		      $    25,445		             $      29,554

Total Seigniorage					                             $   447,068		             $     728,638
                                          68
17. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED
The United States Mint receives apportionments of its resources from OMB. An apportionment
is a plan approved by OMB to spend funds as directed by law. All United States Mint obligations
are classified as reimbursable, as they are financed by offsetting collections received in return for
goods and services provided. OMB usually uses one of two categories to distribute budgetary
resources. Category A apportionments distribute budgetary resources by fiscal quarters. Category
B apportionments typically distribute budgetary resources by activities, projects, objects, or a
combination of these categories. The United States Mint has only category B apportionments.
18. EXPLANATION OF DIFFERENCES BETWEEN THE STATEMENT OF BUDGETARY
RESOURCES AND THE BUDGET OF THE UNITED STATES GOVERNMENT
SFFAS No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting, requires an explanation of material differences between the
Statement of Budgetary Resources (SBR) and the related actual balances published in the Budget
of the United States Government (President’s Budget). The President’s Budget for fiscal year 2009
is expected to be published in February 2010 and made available through OMB. Therefore, the
analysis presented here is for the prior year (FY 2008) “actual” figures published in the Presi-
dent’s budget in February 2009. The following chart displays the comparison of the FY 2008
SBR and the actual FY 2008 balances included in the FY 2010 President’s Budget.
							                                                        September 30, 2008
						                                                Statement of Budgetary	 President’s
						                                                Resources		              Budget
United States Mint Public Enterprise Fund
Total Budgetary Resources				                          2,141,460		               2,141,460
Status of Budgetary Resources:
  Obligations Incurred				                             2,090,602		               2,090,602
  Unobligated Balances-available			                       50,858		                  50,858
Total Status of Budgetary Resources			                 2,141,460		               2,141,460
Net Outlays					                                          62,655		                  62,655

19. LEGAL ARRANGEMENTS AFFECTING USE OF UNOBLIGATED BALANCES
The United States Mint PEF establishes that all receipts from United States Mint operations and
programs, including the production and sale of numismatic items, the production and sale of
circulating coinage, the protection of government assets, and gifts and bequests of property, real
or personal, shall be deposited into the United States Mint PEF and shall be available without
fiscal year limitations. Any amount that is in excess of the amount required by the United States
Mint to cover obligations of the PEF shall be transferred to the Treasury for deposit as miscel-
laneous receipts. At September 30, 2009 and 2008, the United States Mint transferred excess
receipts to the Treasury General Fund of $475 million and $750 million, respectively.
20. HEDGING PROGRAM
At September 30, 2009 and 2008, hedging activity of $88.0 million and $32.0 million included
in inventory represents the value of the silver sold to the trading partner and not yet sold by the
United States Mint and, therefore, not repurchased from the trading partner. In FY 2009, the
United States Mint recorded an unrealized gain from hedging activity of $43 thousand, com-
pared with $932 thousand in FY 2008.




                                          69
21. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
						                                                           For The Years Ended September 30,
						                                                           2009			                    2008
Resources Used to Finance Activities:
 Budgetary Resources Obligated
   Obligations Incurred				                                  $ 2,282,497		                $ 2,090,602
   Less: Spending Authority from
      Offsetting Collections and Recoveries		                    2,512,322		                  2,103,372
 Net Obligations					                                             (229,825)		                    (12,770)
 Other Resources
   Transfers to the Treasury General Fund On-Budget	                (35,000)		                 (15,000)
   Transfers to the Treasury General Fund Off-Budget	             (440,000)		                 (735,000)
   Imputed Financing from Costs Absorbed by Others	                  11,834		                   13,421
   Other Financing Sources (Seigniorage)		                         447,068		                   728,638
   Transfers in without reimbursement		                                 830		                        –
 Net Other Resources Used to Finance Activities	                    (15,268)		                  (7,941)
Total Resources Used to Finance Activities		                      (245,093)		                  (20,711)

Resources Used to Finance Items Not Part
of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods,
    Services and Benefits Ordered but Not Yet Provided	             (61,195)		                   63,435
  Resources Fund Expenses Recognized in Prior Periods	               (2,287)		                        –
  Resources that Finance the Acquisition
    of Assets or Liquidation of Liabilities		                      468,837		                   601,181
  Other						                                                       (35,118)		                 (77,815)
  Total Resources Used to Finance Items
    Not Part of the Net Cost of Operations		                       370,237		                    586,801
Total Resources Used to Finance the Net Cost of Operations        (615,330)		                  (607,512)

Components not Requiring or Generating
 Resources in the Current Period			
 Depreciation and Amortization			                                   34,226		                    34,292
 Revaluation of Assets				                                             623		                     7,046
 Other						                                                       567,052		                   529,365
 Total Components of Net Revenue from Operations
   that will not Require or Generate Resources		                   601,901		                   570,703
Total Components of Net Revenue from Operations
 that will not Require or Generate Resources
 in the Current Period				                                         601,901		                   570,703
Net Revenue from Operations			                               $     (13,429)		             $    (36,809)

22. Undelivered Orders at the End of the Period
Budgetary resources obligated for undelivered orders as of September 30, 2009 and 2008 were
$95,487 and $166,363, respectively.




                                              70
Required Supplementary Information (Unaudited)
For the Years Ended September 30, 2009 and 2008

        INTRODUCTION This section provides the Required Supplemental Information as prescribed by
        the Office of Management and Budget (OMB) Circular A-136, “Financial Reporting Requirements”
        And Statement of Federal Financial Accounting Standards (SFFAS) #29 Heritage Assets and
        Stewardship Land.
        HERITAGE ASSETS The United States Mint is steward of a large, unique, and diversified body
        of heritage assets that demonstrate the social, educational, and cultural heritage of the United
        States Mint. These items include a variety of rare and semi-precious coin collections and histori-
        cal artifacts, and are held at various United States Mint locations. Some of these items are placed
        in locked vaults within the United States Mint where access is limited to only special authorized
        personnel. Other items are on full display to the public requiring little if any authorization to
        view. Included in the heritage assets is the multi-use heritage asset of the building housing the
        United States Mint at Denver. The United States Mint generally does not place a value on heri-
        tage assets, even though some of the coins and artifacts are priceless. However, the assets are
        accounted for and controlled for protection and conservation purposes. Heritage assets held by
        the United States Mint are generally in acceptable physical condition and there is no deferred
        maintenance on the United States Mint at Denver.




                                                 71
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
United States Department of the Treasury

Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2009 and 2008 and the
related statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated November 24, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the United States Mint is responsible for establishing and maintaining effective
internal control. In planning and performing our fiscal year 2009 audit, we considered the United States
Mint’s internal control over financial reporting by obtaining an understanding of the design effectiveness
of the United States Mint’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements. To achieve this purpose,
we did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an opinion on the
effectiveness of the United States Mint’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of the United States Mint’s internal control over financial
reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis.


                                                                         72
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. Exhibit I presents the status of
prior year significant deficiencies.

We noted certain additional matters that we have reported to management of the United States Mint in a
separate letter dated November 24, 2009.

This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 24, 2009




                                                   73
                                                                                             Exhibit I

                                 THE UNITED STATES MINT
                           Status of Prior Year Significant Deficiencies

                                        September 30, 2009

                                                                                          Status as of
 Prior Year                                 Prior Year                                    September
 Condition                              Recommendations
                                                                                           30, 2009

Improvements Needed Over Inventory Tracking

Inventory     Recommendation #1: Enforce and follow the inventory procedures                Closed
              related to the recording and tracking of inventory movements in the
              accounting system to ensure the subsidiary ledger agrees to the
              inventory physically located at the facilities.
                                                                                            Closed
              Recommendation #2: Enforce and follow the inventory procedures,
              specifically related to properly receiving and classifying inventory
              between raw materials and work-in-process.
Improvement Needed in Review of Open Obligations

Open          Recommendation #1: Update the standard operating procedures (SOP)             Closed
Obligations   to include a reconciliation of open obligations population to the general
              ledger.
              Recommendation #2: Enforce the SOP procedures for de-obligating               Closed
              closed obligations and ensure staff is provided with the updated SOP.




                                                74
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
United States Department of the Treasury

Director
United States Mint:

We have audited the balance sheets of the United States Mint as of September 30, 2009 and 2008, and the
related statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “financial statements”) for the years then ended, and have issued our report
thereon dated November 24, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the United States Mint is responsible for complying with laws, regulations, and
contracts applicable to the United States Mint. As part of obtaining reasonable assurance about whether the
United States Mint’s financial statements are free of material misstatement, we performed tests of the
United States Mint’s compliance with certain provisions of laws, regulations, and contracts,
noncompliance with which could have a direct and material effect on the determination of the financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-
04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the United States Mint. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which the United States Mint’s financial
management systems did not substantially comply with the (1) Federal financial management systems
requirements, (2) applicable Federal accounting standards, and (3) the United States Government Standard
General Ledger at the transaction level.




                                                                        75
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
We noted certain additional matters that we have reported to management of the United States Mint in a
separate letter dated November 24, 2009.

This report is intended solely for the information and use of the United States Mint’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used by anyone other than these
specified parties.




November 24, 2009




                                                   76
Appendix I: FY 2009 Coin and Medal Products




      2009 Ultra High Relief Double Eagle Gold Coin
      Coin Release: January 22, 2009
      Design: The 2009 Ultra High Relief Double Eagle Gold Coin is an exquisite synthesis of art and pure 24-karat
      gold. This one-ounce coin is a triumph in coin design representing the culmination – more than a century in the
      making – of a partnership between a renowned artist, Augustus Saint-Gaudens, and a visionary leader, President
      Theodore Roosevelt. The coin is a digitally reproduced version of Saint-Gaudens’ original ultra high relief 1907
      Double Eagle gold piece, which was never released into circulation. The artist’s original design was updated to
      include four additional stars to represent the current 50 states, the inscription “In God We Trust,” which was
      not on the 1907 version, and 2009 in Roman numerals.




      2009 Abraham Lincoln Commemorative                           2009 Louis Braille Bicentennial
      Silver Dollar                                                Silver Dollar
      Coin Release: February 12, 2009                              Coin Release: March 26, 2009
      Mintage Limit: 500,000 (across all product options)          Mintage Limit: 400,000 (across all product options)
      Design: Abraham Lincoln, the 16th President of the           Design: The 2009 Louis Braille Bicentennial Silver
      United States, was one of America’s greatest leaders         Dollar commemorates the 200th anniversary of
      and demonstrated uncommon courage during a critical          the birth of Louis Braille, inventor of the Braille
      period in the Nation’s history. The year 2009 marks the      system, which is still used by the blind to read and
      bicentennial of Lincoln’s birth. Public Law 109-285,         write. The obverse features a portrait of Louis
      the “Abraham Lincoln Commemorative Coin Act,”                Braille. The reverse portrays a young child reading
      requires the Secretary of the Treasury to mint and issue     a book in Braille. The word “Braille” (abbreviated
      $1 silver coins in commemoration of this milestone           Brl in Braille code) is depicted in readable Braille in
      anniversary. The obverse of the 2009 Abraham                 the upper field.
      Lincoln Commemorative Silver Dollar features an
      image inspired by Daniel Chester French’s famous
      sculpture of the President and denotes his strength and
      resolve. The coin’s reverse features those immortal
      words Lincoln spoke at Gettysburg – the last 43 of
      his most famous speech – encircled in a laurel wreath.
      Under the wreath is a curling banner with Lincoln’s
      signature incused in the center.

                                                     77
HAWAII                                              DISTRICT OF COLUMBIA                              PUERTO RICO
Coin Release: November 3, 2008                      Coin Release: January 26, 2009                    Coin Release: March 30, 2009
Mintage for Circulation: 517,600,000                Mintage for Circulation: 172,400,000              Mintage for Circulation: 139,200,000
Design: The reverse of Hawaii’s quarter features    Design: The District of Columbia quarter          Design: The Puerto Rico quarter features a
Hawaiian monarch King Kamehameha I                  features native son Duke Ellington, the inter-    sentry box and the Spanish-built walls of San
stretching his hand toward the eight major          nationally renowned composer and musician,        Juan and represents the territory’s rich history,
Hawaiian Islands. The coin bears an inscrip-        seated at a grand piano with the inscription      geographical location and defensive role.
tion of the state motto “UA MAU KE EA O             “Justice for All,” the District’s motto.          The coin also features a hibiscus flower
KA ‘AINA I KA PONO,” (“The life of the                                                                with the inscription “Isla del Encanto,”
land is perpetuated in righteousness”).                                                               (“Isle of Enchantment”).




GUAM                                                AMERICAN SAMOA                                    U.S. VIRGIN ISLANDS
Coin Release: May 26, 2009                          Coin Release: July 27, 2009                       Coin Release: September 28, 2009
Mintage for Circulation: 87,600,000                 Mintage for Circulation: 82,200,00                Mintage for Circulation: 82,000,000
Design: The Guam quarter depicts the island’s       Design: The American Samoa quarter depicts        Design: The U.S. Virgin Islands quarter features
outline; a flying proa, a seagoing craft built by   symbols of the ava ceremony, a significant        an outline of the three major islands; a Tyre
the Chamorro people; and a latte stone, an ar-      traditional event in Samoan culture. The design   Palm Tree; the territory’s official bird, the
chitectural element used as the base of homes.      features an ava bowl “tanoa,” used to make        yellow breast or banana quit; and the official
It also features the inscription “Guahan I          the special ceremonial drink for island chiefs,   flower, the yellow cedar or yellow elder. It also
Tanó ManChamorro” (“Guam – Land of                  and a whisk and staff, symbolizing the rank of    features an inscription of the territory’s official
the Chamorro”).                                     the Samoan orator. The coin also features a co-   motto “United in Pride and Hope.”
                                                    conut tree on the shore in the background and
                                                    an inscription of the territory’s motto “Samoa
                                                    Muamua Le Atua” (“Samoa, God is First”).




BIRTH AND EARLY CHILDHOOD                           FORMATIVE YEARS IN INDIANA                        PROFESSIONAL LIFE IN ILLINOIS
IN KENTUCKY                                         Coin Release: May 14, 2009                        Coin Release: , August 13, 2009
Coin Release: February 12, 2009                     Mintage for Circulation: 739,600,000              Mintage for Circulation: 652,000,000
Mintage for Circulation: 634,800,000                Design: The second 2009 one-cent coin’s           Design: In honor of President Lincoln’s
Design: Lincoln’s birth and early childhood         reverse design features a young Lincoln           professional life in Illinois (1830-1861), the
(1809-1816) is symbolized on the first 2009         reading while taking a break from working         third 2009 one-cent coin depicts him as a
one-cent coin by a log cabin representing his       as a rail splitter and commemorates his           young professional standing in front of the
humble beginnings in Kentucky.                      formative years in Indiana (1816-1830).           state capitol building in Springfield.


                                                                          78
MARTIN VAN BUREN                                MARTIN VAN BUREN’S LIBERTY
Coin Release: November 13, 2008                 Description: Martin Van Buren’s wife,
Mintage for Circulation: 102,480,000            Hannah, died in 1819, 18 years before he
Description: Martin Van Buren was the           became president. The gold coin issued to
first President to be born an American          accompany any president who served
citizen. As president, Van Buren initiated      without a spouse features a design
an independent federal Treasury system to       emblematic of Liberty on its obverse.
take the place of state banks handling          Van Buren’s Liberty coin features the
federal monies and peacefully settled           image appeared on the Liberty Seated
disputes with Great Britain that were           Dime coin from 1837-1891.
threatening to take the country to war.

WILLIAM HENRY HARRISON                          ANNA HARRISON FIRST SPOUSE
Coin Release: February 19, 2009                 Description: Although born in relatively
Mintage for Circulation: 98,420,000             prosperity in New Jersey, Anna Harrison
Description: The fifth President to hail        lived most of her life as a pioneer in the
from Virginia, William Henry Harrison           Ohio and Indiana frontier, following her
was elected on his famous campaign              husband, William Henry Harrison, during
slogan “Tippecanoe and Tyler Too.” In           his long military and political career. She
a bracing rainstorm, Harrison gave the          was the first presidential spouse with a
longest inaugural speech in United States       documented formal education and had a
history. Shortly thereafter, he developed       lifelong love of learning.
pneumonia. He died exactly one month
after his inauguration, becoming the first
President to die in office.

JOHN TYLER                                      LETITIA TYLER FIRST SPOUSE
Coin Release: May 21, 2009                      Description: Although Letitia Tyler was
Mintage for Circulation: 87,080,000             never able to assume the normal social
Description: John Tyler was the first Vice      duties of a First Lady because of her poor
President to take office upon the death of      health, behind the scenes, she directed the
the sitting President. At the time, the U.S.    entertaining and household management
Constitution was not clear on succession,       of the White House. She died in
and his entire presidency was dominated         September 1842.
by questions on the scope of his presiden-
tial powers, earning him the nickname
“His Accidency.” As President, he cham-
pioned the cause of Texas statehood.

JULIA TYLER FIRST SPOUSE                        2009 NATIVE AMERICAN
Description: Julia Tyler married widower        Coin Release: January 2, 2009
President John Tyler on June 26, 1844.          Design: The 2009 Native American $1
Although she was First Lady for only            Coin commemorates the Native American
eight months, she quickly made her              contributions to agriculture and features a
mark. Julia Tyler was the first presidential    Native American woman planting seeds in
spouse to request that James Sander-            a field of corn, beans and squash.
son’s song “Hail to the Chief” be played
specifically to announce the President’s
arrival on official occasions. The tradition
continues to this day.

JAMES K. POLK                                   SARAH POLK FIRST SPOUSE
Coin Release: August 20, 2009                   Description: Sarah Polk devoted her married
Mintage for Circulation: 88,340,000             life to husband James K. Polk’s political
Description: James K. Polk was a strong         career, organizing his campaigns, writing
proponent of “Manifest Destiny,” the            speeches, handling his correspondence and
belief that the United States had the right     developing a network of valuable politi-
to expand across the entire continent.          cal friendships. As First Lady, Sarah Polk
He oversaw the growth of the country            opened the White House twice a week to all
by more than one million square miles           visitors for evening receptions and person-
during his time in office, including the        ally greeted those who attended. She also
annexation of present day Oregon and            oversaw the refurbishment of the White
Washington and the addition of Califor-         House, including installation of gas lighting.
nia and New Mexico.
                                               79
